<html>
<title> - MILITARY CONSTRUCTION, VETERANS AFFAIRS, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2016</title>
<body><pre>[Senate Hearing 114-]
[From the U.S. Government Publishing Office]




 
     MILITARY CONSTRUCTION, VETERANS AFFAIRS, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2016

                              ----------                              


                        TUESDAY, MARCH 17, 2015

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

    The subcommittee met at 2:30 p.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Mark Kirk (chairman) presiding.
    Present: Senators Kirk, Murkowski, Collins, Boozman, 
Cassidy, Tester, Udall, Schatz, and Murphy.

                         DEPARTMENT OF DEFENSE

                         Department of the Army

STATEMENT OF LIEUTENANT GENERAL DAVID D. HALVERSON, 
            ASSISTANT CHIEF OF STAFF FOR INSTALLATION 
            MANAGEMENT, AND COMMANDER, U.S. ARMY 
            INSTALLATION MANAGEMENT COMMAND 
            HEADQUARTERS

                 OPENING STATEMENT OF SENATOR MARK KIRK

    Senator Kirk. We will be talking about the military 
construction (MILCON) needs of our Armed Forces.
    Let me turn it over to my ranking member, Mr. Tester.

                    STATEMENT OF SENATOR JON TESTER

    Senator Tester. Thank you, Chairman Kirk.
    I want to welcome all the witnesses here today. Thank you 
all for appearing in front of the subcommittee.
    At $8.4 billion, the fiscal year 2016 MILCON budget request 
marks a significant and welcome increase over last year's 
request, a 67-percent increase for Air Force MILCON projects, a 
59-percent increase for Navy, a 37-percent increase for Army. 
And I think this is a remarkable turnaround from last year's 
budget.
    I am particularly pleased that the request includes funding 
for our current mission and quality-of-life projects. Over the 
last 3 years, tight budget constraints have forced the services 
to take risks in their MILCON programs and focus almost 
exclusively on new mission requirements. As a result, aging and 
inefficient facilities continue to be patched together instead 
of being replaced. And quality-of-life projects, such as 
barracks, physical fitness centers, and child care centers, 
went on the backline for funding.
    So the fiscal year 2016 request is a good news story, and I 
want to thank you for your support of the MILCON program. I 
hope the level of MILCON funding in the President's request 
will be sustained as the appropriations bills works their way 
through Congress.
    I do recognize that we face a serious challenge with the 
Budget Control Act (BCA) caps. This is something Congress is 
going to have to address over the coming weeks.
    But I look forward to the testimony here today, and I hope 
the subcommittee will get some assurances that, absent a 
catastrophic reduction in defense funding, MILCON will continue 
to receive adequate funding in the years to come.
    Look, you guys have an important job to do. It is our job 
to give you the tools to do it. I think this budget does it. If 
you are able to justify it, hopefully, we can get over these 
spending caps with the BCA.
    With that, I will turn it back to you, Mr. Chairman.
    Senator Kirk. Thank you. Let's recognize our witnesses. We 
will go with General Halverson. I think we will start out with 
you.
    General Halverson. I thank you, Chairman Kirk, Ranking 
Member Tester, and distinguished members of the committee for 
the opportunity to discuss the Army's fiscal year 2016 military 
construction budget. Also, thank you for your support of the 
past military construction programs that invest in the 
readiness of our Army.
    The President's fiscal year 2016 military construction 
budget request supports a regionally engaged Army that is in a 
fiscally constrained environment. Anything less puts our Army 
at an unacceptable level of risk.
    The Army is at a critical point in installation readiness. 
Sequestration brought on by the Budget Control Act is affecting 
the Army's ability to provide facilities that our all-volunteer 
soldiers and their families rely and depend upon to sustain 
readiness and maintain their quality of life.
    The Army's fiscal year 2016 MILCON budget targets the 
minimum essential requirements. Our request focuses MILCON 
investments on supporting readiness initiatives and 
revitalizing failed facilities. Although we are asking for that 
26-percent increase in the fiscal year 2015 military 
construction, family housing, and base closure activities, it 
is important to note that the $1.6 billion request is a 33-
percent reduction from fiscal year 2014 and a 55-percent 
reduction from fiscal year 2013.
    The Army applies resources to the most critical 
requirements. We reduce risk to the soldier and family 
readiness by managing the limited military construction funds 
necessary for sustaining the readiness, the training, and the 
quality of life, and repairing mission essential facilities 
that are in the worst conditions.
    As the force structure declines, we must right-size the 
supporting infrastructure without compromising Army readiness. 
We need a new round of BRAC realignment and closure in 2017 to 
reduce the cost and consolidate our infrastructure.
    The alternative is to make up for shortages in funding by 
increasing the risk to our readiness. Our parametric analysis 
shows that the Army facility capacity is 18 percent greater 
than required for the 490,000 mission Active Duty force. As end 
strength declines further, more capacity is created.
    The Army welcomes a discussion on how to structure a future 
BRAC process. The fiscal year 2016 military construction budget 
request maintains a trained and ready Army capable of unified 
operations, but at an elevated risk. Our MILCON request is only 
1.3 percent of the total Army budget. We are focusing our 
limited MILCON resources on training, maintenance, mission 
command and readiness of facilities.
    Any further reductions will put us at the brink of breaking 
our soldiers' trust that we will provide them the right 
resources to prepare for any contingency.
    On behalf of the soldiers, families, and civilians in the 
best Army in the world, we thank you for the opportunity to 
present our most critical military construction requirements 
and thank you for your vital support of our Army. I look 
forward to your questions.
    [The statement follows:]
      Prepared Statement of Lieutenant General David D. Halverson
                              introduction
    Chairman Kirk, Ranking Member Tester, and members of the 
subcommittee, on behalf of the soldiers, families, and civilians of the 
United States Army, thank you for the opportunity to present the Army's 
fiscal year 2016 military construction (MILCON) and installations 
programs budget request.
    The Army installation management community is committed to 
providing the facilities necessary to enable a ready and capable Army. 
The President's fiscal year 2016 MILCON budget request supports a 
regionally-engaged Army in a fiscally-constricted environment.
    We ask for the subcommittee's continued commitment to our soldiers, 
families, and civilians and support for the Army's MILCON and 
installations programs.
                                overview
    The President's fiscal year 2016 budget requests $1.6 billion for 
Army MILCON, Army Family Housing (AFH), and Base Closure Accounts 
(BCA). This request represents 1.3 percent of the total Army budget 
request. Of this $1.6 billion request, $743 million is for Military 
Construction, Army; $197 million is for Military Construction, Army 
National Guard; $114 million is for Military Construction, Army 
Reserve; $493 million is for AFH; and $30 million is for BCA.
    The Army's facility investments are focused on supporting necessary 
training, maintenance, and operations facilities. These investments 
take into consideration the fiscal landscape we are facing as a Nation, 
which is influenced by the Budget Control Act of 2011, the Bipartisan 
Budget Agreement of 2013, and the strategic shift to realign forces 
toward the Asia/Pacific theater.
                          army force structure
    Fiscal reductions required by current law, and outlined in the 2014 
Quadrennial Defense Review, have put the Army on a path to shrink our 
Active component end strength and corresponding force structure a 
second time from a peak of 570,000 in fiscal year 2010, to 450,000 by 
fiscal year 2018. This is a total reduction of 120,000 Active component 
soldiers, approximately 22 percent. If sequestration level cuts are 
imposed in fiscal year 2016 and beyond, the Army may have to reduce our 
end strength and corresponding force structure to 420,000 soldiers by 
fiscal year 2019. This is a cumulative reduction of 150,000 soldiers, 
approximately 26 percent.
    These reductions will affect every installation in the Army. The 
Army must retain our adaptability and flexibility so we can continue to 
provide regionally-aligned and mission-tailored forces in support of 
national defense requirements. Failing to maintain the proper balance 
between end-strength, readiness, and modernization will result in a 
``hollow'' Army. The Army is already reducing our Active component from 
45 Brigade Combat Teams (BCTs) to 32 by the end of fiscal year 2015.
    When we evaluated our initial force structure reductions from 
570,000 to 490,000 soldiers, we conducted a Programmatic Environmental 
Assessment (PEA) in 2013, which was prepared in accordance with the 
National Environmental Policy Act (NEPA). The PEA analyzed potential 
environmental impacts that could result from the force reductions, 
including socioeconomic impacts at specified population loss 
thresholds. Since the Army's Active component end-strength and 
corresponding force structure will decline further than 490,000 to 
450,000 by fiscal year 2018, the Army initiated a supplemental PEA 
(SPEA) in February 2014 to analyze additional potential population loss 
scenarios that accounted for the impacts of full sequestration and 
Budget Control Act funding levels in fiscal year 2016 and beyond. 
Following publication of the Finding of No Significant Impact (FONSI), 
the Army is in the process of conducting approximately 30 community 
listening sessions at all Army installations with military and civilian 
populations of 5,000 or more. The community listening sessions, which 
are a separate action from the SPEA process, give communities an 
opportunity to contribute feedback that will be taken into 
consideration by Army leaders before decisions are made on force 
structure reductions for specific installations.
                       facility capacity analysis
    As the Army reorganizes to address these reductions, we must gauge 
the facility capacity and facility mix that we require to support a 
ready and resilient Army. We have begun conducting a facility capacity 
analysis to determine how much excess capacity will be created at the 
aggregate or enterprise level by the decrease in our end strength and 
corresponding force structure.
    We have conducted programmatic analyses of real property needed to 
support an end-strength and corresponding force structure of 490,000 
Active component soldiers. Results show that with 490,000 Active 
component soldiers, we will have nearly 18 percent excess capacity 
across our worldwide installations, totaling over 160 million square 
feet of facilities that could be repurposed to serve a wide variety of 
other uses (including satisfying other Army facility requirements). 
Inside the United States, excess capacity ranges between 12 and 28 
percent, depending on facility category group, with an average of 
approximately 18 percent.
    The Army estimates it costs $3 per square foot each year to 
maintain underutilized facilities. Accordingly, it costs the Army over 
$480 million a year to operate and sustain worldwide excess capacity. 
Additional excess capacity will be created when the Active component 
shrinks further, necessitating incremental facility capacity analyses.
    In January 2013, the Secretary of Defense directed a thorough 
review of European infrastructure requirements. This effort is 
consistent with the congressional direction communicated in the fiscal 
year 2014 National Defense Authorization Act. In May 2014, the first 
set of decisions resulting from the European Infrastructure 
Consolidation (EIC) analysis was released. The Secretary of Defense 
approved 22 actions, 13 of which were Army actions. Many of these 
actions had been underway prior to EIC, yet they were formally 
reevaluated and found to be wholly consistent with the intent of EIC: 
to reduce excess infrastructure and associated operating costs, without 
sacrificing operational capabilities.
    In January 2015, the Department of Defense announced 26 additional 
decisions, 20 of which were Army actions, which resulted from a 
rigorous analytic method that adapted elements of the Base Closure and 
Realignment (BRAC) process to an overseas environment. This analysis 
included a Capacity Analysis, a Military Value Analysis, and a 
structured Scenario Development and Evaluation process. The Army is now 
nearing completion of fully developed and coordinated business plans to 
ensure these decisions are implemented between 2016 and 2020, in a 
manner that conforms to the Secretary of Defense's guidance and 
achieves both the projected savings and infrastructure reductions.
    The 33 Army EIC actions will significantly reduce our 
infrastructure in Europe at a considerably faster pace than previously 
envisioned. They are projected to yield Annual Recurring Savings of 
$163 million by fiscal year 2021 after implementation costs of $358 
million are incurred between fiscal year 2014 and 2020.
    The use of BRAC methods and tools to evaluate our European 
infrastructure was helpful in building expertise and proficiency that 
will help prepare the Army for a future BRAC Round. Moreover, the rigor 
of the analysis helped to demonstrate that DOD has reduced, or 
identified for reduction, all that it can overseas, and must now look 
to seek reductions within the United States, for which new BRAC 
authority is essential. This authority is needed to eliminate excess, 
balance infrastructure and force structure, and operate within 
projected fiscal constraints. The DOD and the Army have the tools and 
authorities needed to identify and reduce our excess capacity overseas. 
Inside the United States, however, the best and proven method to 
address excess infrastructure, in a cost-effective, transparent, and 
equitable manner, is through the BRAC process.
    Our evaluation of European infrastructure followed the BRAC 
analytic methods and laid the foundation for the next round of BRAC. 
BRAC is a proven, fair, and cost effective process; the savings have 
been validated by the Government Accountability Office (GAO). Similar 
to our EIC effort, the Army is committed to a future BRAC round that is 
focused on efficiency and consolidation rather than transformation.
    The Army needs BRAC to achieve savings of a sufficient magnitude to 
prevent the deterioration of our critical infrastructure. As the Army's 
end-strength and force structure decline alongside available funding, 
hundreds of millions of scarce dollars will be wasted in maintaining 
underutilized buildings and infrastructure. Trying to spread a smaller 
budget over the same number of installations and facilities will 
inevitably result in rapid declining conditions of Army facilities.
    The Army has used existing authorities to vacate leased space and 
move from temporary buildings into permanent buildings. For example, at 
Fort Campbell, Kentucky, when the Fourth BCT of the 101st Airborne 
Division was inactivated, it resulted in 228 facility reallocation 
moves affecting 5 different Brigades. At the end of the process, Fort 
Campbell vacated and removed 91 relocatable buildings consisting of 
over 200,000 Square Feet.
    As laudable as the Fort Campbell efficiency measures have been, 
however, the stark budgetary reality is that modest savings from these 
prudent efficiency measures cannot substitute for the significant 
savings of a new BRAC round. The cost of running a garrison is 
relatively fixed, regardless of whether the supported population is 
reduced by 10, 20, or 40 percent. The Army must continue to evaluate, 
balance, and right-size the diverse and extensive supporting 
infrastructure that enables our effective fighting forces. BRAC is the 
only proven authority that allows the Army to achieve this balance, 
reduce costs, and achieve the necessary savings.
    For many communities near our installations, BRAC is better than 
proceeding with the reduction of force structure and excess capacity 
under current law. It provides the impacted communities a chance to 
conduct comprehensive redevelopment planning with Federal resources to 
assist them. It also can provide the community additional property 
conveyance options. Neither the Army nor the supporting communities 
benefit from retaining underutilized installations that are 
unaffordable for the Army with diminished economic benefit to the 
community.
                   facility investment strategy (fis)
    As the Army shapes the Force of 2025 and Beyond through a series of 
strategic initiatives, the Installation Management Community continues 
to focus on providing quality, energy-efficient facilities in support 
of the Army Leadership priorities.
    The FIS provides a strategic framework that is synchronized with 
the Army Campaign Plan (ACP); Total Army Analysis; and the Planning, 
Programming, Budgeting & Execution (PPBE) to determine capital 
investment needed to sustain Army facilities at installations and Joint 
Service bases across the country. The FIS is a cost-effective and 
efficient approach to facility investments that reduces unneeded 
footprint, saves energy by preserving efficient facilities, 
consolidates functions for effective space utilization, demolishes 
failing buildings, and uses appropriate excess facilities to eliminate 
off-post leases.
    FIS uses MILCON funding to replace failing facilities and build out 
critical facility shortages; Operation and Maintenance (O&M) funding to 
address the repair and maintenance of existing facilities; O&M 
Restoration and Modernization (R&M) funding to improve existing 
facility quality; O&M Sustainment funding to maintain existing 
facilities; and Demolition and Disposal funding to eliminate failing 
excess facilities. Focused investments from MILCON and O&M funding 
support facilities grouped in the following categories: Redeployment/
Force Structure, Barracks, Revitalization, Ranges, and Training 
Facilities. The fiscal year 2016 budget request implements the FIS by 
building out shortfalls for unmanned aerial vehicle units, Army Cyber, 
initial entry training barracks, selected maintenance facilities, and 
Reserve component facilities. Additional departmental focus areas 
include Organic Industrial Base and Energy/Utilities.
                    fiscal year 2016 budget request
                      military construction, army
    The fiscal year 2016 Military Construction, Army (MCA) budget 
requests an authorization of $609 million and appropriations for $743.2 
million. The appropriations request includes $134.2 million for 
planning and design, minor military construction, and host nation 
support. The MCA program is focused on the MILCON categories of Army 
Cyber, Barracks, Revitalization, Ranges and Training Facilities, and 
Other Support Programs.
    Of the $743.2 million, $90 million will be spent on Army Cyber. The 
fiscal year 2016 MCA budget requests a Command and Control Facility for 
the recently-established Army Cyber Command (ARCYBER) and Joint Forces 
Headquarters Cyber at Fort Gordon, Georgia.
    Of the $743.2 million, $56 million will be spent on Barracks. As 
part of the Army's continued investment in barracks, the fiscal year 
2016 MCA budget provides for one project to complete a Reception 
Barracks Complex at Fort Sill, Oklahoma, which includes 254 barracks 
spaces and company operations facilities for Initial Entry Training 
(IET) soldiers during their in-processing.
    Of the $743.2 million, $397.6 million will be spent on 
Revitalization. As part of the Army's Facility Investment Strategy, the 
Army is requesting eight projects to address failing facilities and/or 
critical facility shortfalls to meet the unit mission requirements. 
Projects include the $43 million Homeland Defense Operation Center at 
Joint Base San Antonio, Texas; a $70 million Waste Water Treatment 
Plant at West Point, New York; a $37 million Instruction Building at 
Joint Base Myer-Henderson Hall, Virginia; a $85 million Powertrain 
Facility (Infrastructure/Metal) at Corpus Christi Army Depot, Texas; a 
$98 million replacement of Pier #2 at the Military Ocean Terminal 
Concord, California; a $7.8 million Physical Readiness Training 
Facility at Fort Greely, Alaska; a $5.8 million Rotary Wing Taxiway at 
Fort Carson, Colorado; and a $51 million Vehicle Maintenance Shop at 
Grafenwoehr Training Area, Germany.
    Of the $743.2 million, $65.4 million will be spent on Ranges and 
Training Facilities. These funds will be invested to construct a Non-
Commissioned Officer (NCO) Academy at Fort Drum, New York ($19 million) 
as well as two new Training Support Facilities. These facilities are 
located at Fort Sill, Oklahoma ($13.4 million) and Fort Lee, Virginia 
($33 million) to meet Program of Instruction (POI) training 
requirements for soldiers, non-commissioned officers and junior 
officers undergoing Military Occupational Specialty training.
    Of the $743.2 million, $134.2 million will be spent on Other 
Support Programs. This includes $73.2 million for planning and design 
of MCA projects, $36 million for the oversight of design and 
construction of projects funded by host nations, and $25 million for 
unspecified minor construction.
               military construction, army national guard
    The fiscal year 2016 Military Construction, National Guard (MCNG) 
budget requests an authorization of $132.1 million and appropriations 
for $197.2 million. The appropriations request includes $35.3 million 
for planning and design and minor military construction and $29.8 
million for previously-authorized projects at Dagsboro, Delaware ($10.8 
million) and Yakima, Washington ($19 million). The MCNG program is 
focused on the readiness centers, maintenance facilities, training 
facilities, ranges and barracks.
    Of the $197.2 million, $88.3 million will be spent on Readiness 
Centers. The fiscal year 2016 budget request includes five readiness 
centers: Palm Coast, Florida ($18 million); Easton, Maryland ($13.8 
million); Salem, Oregon ($16.5 million); Richmond, Virginia ($29 
million); and Camp Hartell, Connecticut ($11 million). The readiness 
centers include new facilities as well as expansions/alterations to 
existing facilities. The projects primarily address space shortfalls 
and replacement of obsolete facilities. In one case, the project will 
eliminate the need to continue leasing a facility. The new readiness 
centers will enhance the Army National Guard's readiness to perform 
state and Federal missions.
    Of the $197.2 million, $26.7 million will be spent on Maintenance 
Facilities. Three National Guard maintenance shops are included in the 
request. The Dagsboro, Delaware facility ($10.8 million) addresses 
shortfalls in interior space, privately-owned vehicle parking, and 
military vehicle parking. A project in North Hyde Park, Vermont ($7.9 
million) adds space to an existing facility that only has 22 percent of 
the required space. One final addition/alteration project is located in 
Reno, Nevada ($8 million) and will address space shortfalls and 
modernize the existing facility.
    Of the $197.2 million, $16 million will be spent on Training 
Facilities. At Fort Indiantown Gap, Pennsylvania, a new training aids 
center ($16 million) replaces a deteriorated World War Two-era facility 
and other temporary storage.
    Of the $197.2 million, $11.9 million will be spent on Ranges. The 
Army National Guard's request contains four range projects. Two range 
projects are located in Salina, Kansas and consist of an automated 
combat pistol/military police firearms qualification course ($2.4 
million) and a modified record fire range ($4.3 million). Both of these 
ranges are necessary in order to meet current training range criteria 
and achieve the required throughput. The range project at Camp Ravenna, 
Ohio, a modified record fire range ($3.3 million), will provide needed 
capacity for unit training. In Sparta, Illinois a basic firing range 
($1.9 million) will address the lack of this type of facility in south 
central Illinois.
    Of the $197.2 million, $19 million will be spent on Barracks 
facilities. At Yakima, Washington, a new transient training barracks 
($19 million) addresses a shortfall in space and quality.
    Of the $197.2 million, $35.3 million will be spent on Other Support 
Programs. The fiscal year 2016 Army National Guard budget request 
includes $20.3 million for planning and design of future year projects 
and $15 million for unspecified minor military construction.
                  military construction, army reserve
    The fiscal year 2016 Military Construction, Army Reserve (MCAR) 
budget requests an authorization of $88.2 million and appropriations 
for $113.6 million. The appropriations request includes $16.1 million 
for planning and design and minor military construction and $9.3 
million for a previously-authorized project at Starkville, Mississippi.
    Of the $113.6 million, $97.5 million will be spent on 
Revitalization. The fiscal year 2016 Army Reserve budget request 
includes five projects that build out critical facility shortages and 
replace and modernize failing infrastructure and inefficient facilities 
with new operations and energy efficient facilities. The Army Reserve 
will construct three new reserve centers in Riverside, California; 
MacDill AFB, Florida; and Starkville, Mississippi that will provide 
modern training classrooms, simulations capabilities, and maintenance 
platforms that support the Army force generation cycle and the ability 
of the Army Reserve to provide trained and ready soldiers for Army 
missions when called. The Starkville, Mississippi project was 
authorized in the fiscal year 2015 National Defense Authorization Act, 
but no funds were appropriated. In Conneaut Lake, Pennsylvania the Army 
Reserve, through the Defense Access Roadway program, will improve an 
access road leading to an Army Reserve Local Training Area and 
maintenance facilities. The request also includes a new vehicle 
maintenance facility at Orangeburg, New York.
    Of the $113.6 million, $16.1 million will be spent on Other Support 
Programs. The fiscal year 2016 Army Reserve budget request includes 
$9.3 million for planning and design of future year projects and $6.8 
million for unspecified minor military construction to address 
unforeseen critical needs.
                          army family housing
    The Army's fiscal year 2016 AFH budget requests $493.2 million for 
construction and housing operations worldwide. The AFH inventory 
includes 10,614 Government-owned homes, 4,984 Government-leased homes, 
and 86,077 privatized-homes. The Army has privatized over 98 percent of 
on-post housing assets inside the United States. All Army overseas 
family housing quarters are either Government-owned or Government-
leased units.
    Of the $493.2 million, $85.8 million will be spent on Operations. 
The Operations account includes four sub-accounts: management, 
services, furnishings, and a small miscellaneous account. Within the 
management sub-account, Installation Housing Services Offices provide 
post housing, non-discriminatory listings of rental and for-sale 
housing, rental negotiations and lease review, property inspections, 
home buying counseling, landlord-tenant dispute resolution, in-and-out 
processing housing assistance, and assistance with housing 
discrimination complaints and act as a liaison between the installation 
and local and State agencies. In addition, this account supports remote 
access to housing information from anywhere in the world with direct 
information or links to garrison information such as schools, 
relocation information, installation maps, housing floor plans, photo 
and housing tours, programs and services, housing wait list 
information, and housing entitlements.
    Of the $493.2 million, $65.6 million will be spent on Utilities. 
The Utilities account includes the cost of delivering heat, air 
conditioning, electricity, water, and wastewater support for owned or 
leased (not privatized) family housing units.
    Of the $493.2 million, $75.2 million will be spent on Maintenance 
and Repair. The Maintenance and Repair account supports annual 
recurring projects to maintain and revitalize AFH real property assets 
and is the account most affected by budget changes. This funding 
ensures that we appropriately maintain the 10,614 housing units so that 
we do not adversely impact soldier and family quality of life.
    Of the $493.2 million, $144.9 million will be spent on Leasing. The 
Army Leasing program is another way to provide soldiers and their 
families with adequate housing. The fiscal year 2016 budget request 
includes funding for 575 temporary domestic leases in the United 
States, and 4,409 leased units overseas.
    Of the $493.2 million, $22 million will be spent on Privatization. 
The Privatization account provides operating funds for the Army's 
Residential Communities Initiatives (RCI) program portfolio and asset 
management and Government oversight of privatized military family 
housing. The need to provide oversight of the privatization program and 
projects is reinforced in the fiscal year 2013 National Defense 
Authorization Act, which requires more oversight to monitor compliance, 
review, and report performance of the overall privatized housing 
portfolio and individual projects.
    In 1999, the Army began privatizing family housing assets under the 
Residential Communities Initiative (RCI). All scheduled installations 
have been privatized through RCI. RCI family housing is established at 
44 locations--98 percent of the on-post family housing inventory inside 
the United States. Initial construction and renovation investment at 
these 44 installations is estimated at $13.2 billion over a 3-14-year 
initial development period (IDP), which includes an Army contribution 
of approximately $2 billion. All IDPs are scheduled to be completed by 
2019. From 1999 through 2013, our RCI partners have constructed 31,935 
new homes and renovated another 25,834 homes.
    Of the $493.2 million, $99.7 million will be spent on Construction. 
The Army's fiscal year 2016 Family Housing Construction request is for 
$89 million for new construction, $3.5 million for construction 
improvements and $7.2 million for planning and design. The Army will 
construct 38 single family homes at Rock Island Arsenal, Illinois to 
support senior officer and senior non-commissioned officer and 
families. These new homes enable the Army to fully address the housing 
deficit and to eliminate dependency on leased housing. The Army will 
construct 90 apartment quarters on Camp Walker in Daegu, Korea to 
replace aged and worn out leased units to consolidate families on post.
                       base closure account (bca)
    BRAC property disposal remains an Army priority. Putting excess 
property back into productive re-use, which can facilitate job 
creation, is important to the communities in which they are located.
    The Army's portion of the fiscal year 2016 BCA budget request 
totals $29.7 million. The request includes $14.6 million for caretaker 
operations and program management of remaining properties and $15.1 
million for environmental restoration efforts. In fiscal year 2016, the 
Army will continue environmental compliance and remediation projects at 
various BRAC properties. The funds requested are needed to keep planned 
environmental response efforts on track particularly at legacy BRAC 
installations including Fort Ord, California and Pueblo Chemical Depot, 
Colorado. Additionally, funds requested support environmental projects 
at several BRAC 2005 installations including Riverbank Army Ammunition 
Plant, California; Fort Monmouth, New Jersey; Fort Monroe, Virginia; 
and Umatilla Chemical Depot, Oregon. The current estimated cost to 
complete all BRAC environmental cleanup requirements is $957 million 
over a period of approximately 30 years.
    When the Army sells excess BRAC property, proceeds go back into our 
Base Closure Account to fund remaining Army environmental and 
maintenance requirements on our BRAC sites. Sales of Army BRAC property 
at substantially fair market value help protect programs that support 
Active, Guard, and Reserve installations.
    In total, the Army has disposed of almost 225,000 acres (76 percent 
of the total acreage disposal requirement of 297,000 acres), with 
approximately 72,000 acres (24 percent) remaining. The current goal is 
for all remaining excess property to be conveyed by 2023. Placing this 
property into productive reuse helps communities rebuild the local tax 
base, generate revenue, and, most importantly, replace lost jobs.
    There is life after BRAC for defense communities. BRAC-impacted 
communities have leveraged planning grants and technical assistance 
from the DOD Office of Economic Assistance (OEA), as well as BRAC 
property disposal authorities, to adjust in ways that are often not 
possible outside the BRAC process. There are many instances of how BRAC 
property has been put to new uses; below are three examples.
    At Fort Monmouth, transferred property is now in productive re-use. 
During November 2014, CommVault, a data protection and information 
software company moved its global headquarters to a portion of the 
former Fort Monmouth. CommVault moved 500 existing employees and 400 
new employees into the new 275,000 square foot facility less than 2 
years after the Army conveyed a 55 acre parcel to the public 
development authority in consideration for an Economic Development 
Conveyance under BRAC law CommVault officials anticipate 2,000 
additional employees will be hired upon completion of a 650,000 square 
foot addition to the 55 acre campus. The company's decision to re-
locate and expand at its new location is a major step to establish a 
technology hub on the former Fort Monmouth.
    At Fort Gillem, Kroger, one of the world's largest grocery 
retailers, will open a one million square foot state-of-the-art 
distribution center on 253 acres at the former Fort Gillem, creating 
120 new jobs and investing more than $175 million into the former Army 
and Air Force Exchange Service (AAFES) distribution facility over the 
next 5 years. The new jobs will include warehouse, security, 
transportation management, engineering and facilities management 
positions. The community anticipates 1,500 new jobs over the next 2 
years and revenues to support critical services for the residents of 
Forest Park. Like Fort Monmouth, the Army conveyed this property to the 
Local Redevelopment Authority as an Economic Development Conveyance, 
receiving $15 million at closing with an additional $15 million in 
structured payments over the next 7 years.
    The third BRAC example is the US Army Reserve Center #2 in Houston, 
Texas. This six acre site, including more than 15,000 square feet, was 
conveyed in August 2012 to the City of Houston under a Department of 
Justice Public Benefit Conveyance (PBC) for use as a police department. 
This type of re-use is common across the country whenever the Army 
closes a Reserve Center.
                                 energy
    The Army is improving our installation energy use and 
sustainability efforts. In fiscal year 2016, the Installation Energy 
budget total is $1.68 billion. This budget total includes $45.8 million 
from the DOD-wide MILCON appropriation for the Energy Conservation 
Investment Program (ECIP), $150.1 million for the Energy Program/
Utilities Modernization Program, and $1.48 billion for Utilities 
Services. The Army conducts financial reviews, business case and life 
cycle cost analysis, and return on investment evaluations for all 
energy initiatives.
    Of the $1.68 billion, $45.8 million will be spent on the Energy 
Conservation Investment Program (ECIP). The Army invests in energy 
efficiency, on-site small-scale energy production, and grid security 
through the DOD's appropriation for ECIP. In fiscal year 2014, the DOD 
began conducting a project-by-project competition to determine ECIP 
funding distribution to the Services. In fiscal year 2016, the Army 
received $45.8 million for seven projects, including six energy 
conservation projects and one renewable energy project.
    Of the $1.68 billion, $150.1 million will be spent on Energy 
Program/Utilities Modernization. Reducing consumption and increasing 
energy efficiency are among the most cost-effective ways to improve 
installation energy security. The Army funds many of its energy 
efficiency improvements through the Energy Program/Utilities 
Modernization program account. Included in this total are funds for 
energy efficiency projects, the Army's metering program, modernization 
of the Army's utilities, energy security projects, and planning and 
studies. In addition, this account funds planning and development of 
third party financed renewable energy projects through the Office of 
Energy Initiatives (OEI). The OEI currently has 14 projects completed, 
under construction, in the procurement process, or in the final stages 
before procurement with a potential of over 400 Mega Watts (MW) of 
generation capacity. Power purchased in conjunction with OEI projects 
will be priced at or below current or projected installation utility 
rates.
    Of the $1.68 billion, $1.48 billion will be spent on Utilities 
Services. The Utilities Services account pays all Army utility bills 
including the repayment of Utilities Privatization (UP), Energy Savings 
Performance Contracts (ESPCs), and Utilities Energy Service Contracts 
(UESCs). Through the authority granted by Congress, ESPCs and UESCs 
allow the Army to implement energy efficiency improvements through the 
use of private capital, repaying the contractor for capital investments 
over a number of years out of the energy cost savings. The Army has the 
most robust ESPC program in the Federal Government. The ESPC program 
has more than 200 Task Orders at 78 installations, representing $1.68 
billion in private sector investments, and over 370 UESC Task Orders at 
47 installations, representing $583 million in utility sector 
investments. We have additional ESPC projects in development, totaling 
over $300 million in private investment and $60 million in development 
for new UESCs. From December 2011 through December 2014, under the 
President's Performance Contracting Challenge, the Army executed $725 
million in contracts with third-party investment using ESPCs and UESCs.
                              environment
    The Army's fiscal year 2016 budget provides $1.1 billion for 
environmental programs in support of current and future readiness. This 
budget supports legally-driven environmental requirements under 
applicable Federal and State environmental laws, binding agreements, 
and Executive Orders. It also promotes stewardship of the natural 
resources that are integral to our capacity to effectively train our 
land-based force for combat.
    This budget maintains the Army's commitment to acknowledge the past 
by restoring Army lands to a useable condition and by preserving 
cultural, historic and tribal resources. It allows the Army to engage 
the present by meeting environmental standards that enable Army 
operations and protect our soldiers, families, and communities. 
Additionally, it charts the future by allowing the Army to 
institutionalize best practices and technologies to ensure future 
environmental resiliency.
             sustainment/restoration & modernization (r&m)
    This year's fiscal year 2016 sustainment funding is $2.9 billion or 
80 percent of the DOD Facilities Sustainment Model (FSM) requirement 
for all the Army components. Due to this lower level of sustainment 
funding, we are accepting a level of risk in degraded facilities due to 
deferred maintenance. Our facility inventory is currently valued at 
$299 billion.
    In keeping with the FIS, the Army continues to invest in facility 
restoration through O&M R&M currently budgeted for $562 million. Our 
focus is to restore trainee barracks, enable progress toward energy 
objectives, and provide commanders with the means of restoring other 
critical facilities. The Army's demolition program has been increased 
by 46 percent to $42.2 million, which increases the rate at which we 
are removing failing excess facilities. Facilities are an outward and 
visible sign of the Army's commitment to providing a quality of life 
for our soldiers, families, and civilians that is consistent with their 
commitment to our Nation's security.
                        base operations support
    The Army's fiscal year 2016 Base Operations Support (BOS) request 
is $9.2 billion in support of leadership's commitment to provide 
quality of life to our soldiers, civilians, and families that is 
commensurate with their service. The fiscal year 2016 BOS funding 
request represents a 10 percent reduction compared to fiscal year 2014 
full year execution (including OCO authorized in support of Base 
Budget). It should be noted that the fiscal year 2016 BOS budget 
reflects a 6 percent increase above the fiscal year 2015 BOS-enacted 
level ($8.7 billion), demonstrating senior leadership's desire to 
address installation readiness. Although the military and civilian 
workforce is being reduced, the number of installations remains the 
same. Balancing the BOS funding across 154 installations world-wide 
stresses the Army's ability to provide a safe training environment and 
a respectable quality of life on our installations. The Army will 
continue to be fiscally challenged to meet the demands of our 
installation communities.
    The Army remains committed to our family programs and continues to 
evaluate these services in order to maintain relevance and 
effectiveness. Ensuring the resiliency of our soldiers and families is 
the priority of programs such as the Army Substance Abuse Program, 
Soldier Family Assistance Centers, and Suicide Prevention.
    Given fiscal realities, the Army continues to evaluate programs to 
fully optimize resources by eliminating redundant or poorly performing 
programs and making tough decisions to adjust service levels and then 
manage expectations. We continue to seek internal efficiencies/
tradeoffs as our fiscal environment forces the internal realignment of 
BOS funds to support these Army priorities.
    Budget uncertainties are producing real life consequences in 
training and installation readiness, as well as the local community. 
Current funding requires installations to scale back or cancel service 
contracts that employ people in local communities and requiring 
installations to work with commanders to use special duty assignments 
to support installation services and programs (e.g., installation 
security, transportation, vehicle and range maintenance, POL and Ammo 
handling).
    Without a reduction in the number of installations, the Army will 
be forced to sacrifice quality of life programs at the expense of 
maintaining excess capacity. The cumulative effect of funding 
reductions over the years harm the overall quality of life on our 
installations and adjoining communities as the Army realigns our 
military and civilian population and reduces supporting service program 
contracts across the garrisons.
                  intergovernmental support agreements
    The Army is implementing an overarching strategy to incorporate 
Intergovernmental Support Agreements (IGSAs) as authorized in the 
fiscal year 2013 NDAA, Section 331 (codified as 10 U.S.C. Sec. 2336). 
The clarification included in the fiscal year 2015 NDAA facilitates the 
Army's ability to enter and participate in public-public partnerships. 
The Department of the Army issued an Execution Order to Army Commands 
in August of 2013 with initial guidance. Installations have identified 
96 IGSA concepts, three of which have been submitted to Army 
headquarters for approval. These initial proposals will assist the Army 
to develop a standardized process for identifying, evaluating and 
approving IGSAs. Further guidance is being developed from the 
clarifications provided last year.
                               conclusion
    The Army's fiscal year 2016 installations management budget request 
is a balanced program that supports the Army as we transition from 
combat, and it supports our soldiers, families, and civilians while 
recognizing the current fiscal conditions.
    The Army's end-strength and force structure are decreasing 
consistent with the 2014 QDR. At 450,000 Active component soldiers, we 
have evidence that the Army will have well over 18 percent excess 
capacity. The Army needs the right tools to right size our capacity. 
Failure to reduce excess capacity will divert hundreds of millions of 
dollars per year away from critical training and readiness functions.
    The European Infrastructure Consolidation Assessment (EIC) has been 
extremely successful. It shows that the combination of our Army BRAC-
based Infrastructure Analysis and the already robust strategic plans 
effort of the U.S. Army in Europe prepare us to meet the challenges of 
the future. The European Infrastructure Consolidation results 
demonstrate the Army's commitment to seek greater efficiencies and 
ensure we are focusing resources where they can have the greatest 
effect. The resulting actions ensure, even in the context of a 
challenging fiscal environment, that we are ready and able to defend 
U.S. interests and meet our commitment to our Allies now and in the 
future.
    BRAC is a proven and fair means to address excess capacity. BRAC 
has produced net savings in every prior round. On a net $13 billion 
investment, the BRAC 2005 round is producing a net stream of savings of 
$1 billion a year. In this case, BRAC 2005 is producing a 7.7 percent 
annual yield. That is a successful investment by any definition. A 
future round of BRAC is likely to produce even better returns on 
investment. We look forward to working with Congress to determine the 
criteria for a BRAC 2017 round.
    Thank you for the opportunity to appear before you today and for 
your continued support for our soldiers, families, and civilians.

    Senator Kirk. Ms. Kern.

                         Department of the Navy

STATEMENT OF ERIN M. KERN, SES, DIRECTOR, SHORE 
            READINESS DIVISION, DEPUTY CHIEF OF NAVAL 
            OPERATIONS (FLEET READINESS AND LOGISTICS), 
            OFFICE OF THE CHIEF OF NAVAL OPERATIONS
    Ms. Kern. Chairman Kirk, Ranking Member Tester, and 
distinguished members of the subcommittee, thank you for this 
opportunity to testify on the Navy's fiscal year 2016 military 
construction budget request.
    The Navy's shore infrastructure is critical to our mission 
success. Our 70 installations worldwide enable the Navy's 
operational readiness and are essential to the quality of life 
of our sailors, civilians, and their families. But the 
cumulative effect of budget shortfalls over the last several 
years has compelled the Navy to reduce funding in shore 
infrastructure to preserve the operational readiness of our 
fleet.
    As a result, many of our shore facilities are degrading at 
an accelerated rate. At sequestration levels, this risk would 
be exacerbated and the condition of our shore infrastructure, 
including piers, runways, and mission-critical facilities, will 
further erode. We will run a great risk of mishaps, serious 
injury, and health hazards to personnel.
    Sequestration in fiscal year 2013 was not just a 
disruption. It resulted in significant consequences, both 
afloat and ashore, and we have not yet recovered. A return to 
sequestration in 2016 would cause the Navy to revisit and 
revise our entire strategy.
    In light of funding shortfalls over the last 3 years, the 
fiscal year 2016 President's budget request represents the 
absolute minimum we need to execute the Nation's defense 
strategy.
    Navy's fiscal year 2016 military construction program 
includes 38 projects valued at almost $1 billion to invest in 
our infrastructure worldwide. We have prioritized funding to 
enable IOC of new platforms, such as LCS, P-8A, F-35C, MH-60, 
and MQ-4C, through the construction of hangars, mission control 
centers, and various support and training facilities.
    We are also supporting combatant commander requirements by 
constructing a land-based Aegis site in Poland and upgrading 
port facilities in Bahrain.
    A portion of MILCON funds will recapitalize infrastructure 
in three naval shipyards and improve the resiliency of utility 
systems at seven bases. Three projects will improve the quality 
of life for our sailors and their families by addressing 
unaccompanied housing issues in Florida and Maryland, and 
constructing a new child development center in Japan.
    Our 2016 budget request funds the sustainment, restoration, 
and modernization of our facilities only enough to arrest the 
immediate decline and condition of our most critical 
infrastructure. As a result, we will prioritize our funding to 
address life, health, and safety issues, and to repair the most 
essential components of our mission-critical facilities.
    Our facilities are degrading and our maintenance backlog is 
increasing. We understand this backlog must eventually be 
addressed, but we simply cannot afford to do so at this time. 
We will continue to carefully and deliberately manage the risk 
we are taking in our shore enterprise.
    The Navy's 70 installations worldwide, and the men and 
women who operate them, are key enablers to our Navy's 
warfighting readiness.
    Thank you for supporting our shore readiness programs and 
for the opportunity to testify today. I look forward to your 
questions.
    [The statement follows:]
                   Prepared Statement of Erin M. Kern
    Chairman Kirk, Ranking Member Tester and distinguished members of 
the subcommittee, I am honored to appear before you representing the 
dedicated sailors and civilian workforce of the United States Navy. I 
appreciate the opportunity to testify about our Navy's shore 
infrastructure, which enables our operational and combat readiness and 
is essential to the quality of service for our sailors, civilian 
employees, and their families.
    Our shore infrastructure is critical to the Navy's mission success. 
Seventy installations across 11 regions provide the foundation for 
training and preparing our sailors. Nevertheless, to comply with 
today's fiscal constraints, we are compelled to continue accepting risk 
in shore infrastructure investment and operations to preserve the 
operational readiness of our Fleet.
               impact of sequestration on shore readiness
    For the last 3 years, the Navy has been operating under reduced 
top-line budgets that generate capability shortfalls amounting to $25 
billion less than the President's budget requests. Sequestration deeply 
affected the Navy budget in fiscal year 2013 and we have not yet 
recovered. Stabilized funding in fiscal year 2014 and 2015 provided by 
the Bipartisan Budget Act of 2013, along with an additional $2.2 
billion above Navy's requested budget in fiscal year 2015, provided 
limited relief from sequestered Budget Control Act of 2011 (BCA) 
funding levels and helped Navy's overall posture.
    The cumulative effect of budget shortfalls since fiscal year 2013 
compelled the Navy to reduce funding in shore readiness to preserve the 
readiness of our operational Fleet. As a result, many of our shore 
facilities are degrading. The possibility of future sequestration 
exacerbates this risk and the condition of our shore infrastructure, 
including piers, runways, and mission-critical facilities, will likely 
erode further. This situation may lead to structural damage to our 
ships while pierside, aircraft damage from foreign object ingestion on 
deteriorated runways, and degraded communications within command 
centers. We run a greater risk of mishaps, serious injury, or health 
hazards to personnel.
                         military construction
    The President's budget request for 2016 (PB 2016) Military 
Construction (MILCON) program includes 38 projects valued at nearly $1 
billion to invest in our worldwide infrastructure, which is a 30 
percent increase over fiscal year 2015 levels and brings Navy back to 
our historical MILCON funding levels. We focus our MILCON investments 
on meeting new platform and system requirements in accordance with our 
global Strategic Laydown Plan, supporting Combatant Commander 
operational requirements, recapitalizing Naval Shipyards, modernizing 
utilities systems, upgrading critical infrastructure, and supporting 
Quality of Life programs for our sailors and their families.
    Approximately one-third of our MILCON program is dedicated to 
enabling the Initial Operating Capability of new platforms. Our PB 2016 
program:

  --Constructs a P-8A Poseidon detachment support facility in Hawaii, a 
        maintenance hangar with support facilities in Italy, and a 
        high-security building addition for the Advanced Airborne 
        Sensor system in Florida,
  --Renovates hangars in California and outfits secure space for an 
        Operational Trainer in Japan for the E-2D Advanced Hawkeye 
        early warning and control aircraft,
  --Constructs training facilities and expands hangars at the West 
        Coast home base for F-35Cs in Lemoore, California,
  --Constructs a Mission Control System facility in Florida, a hangar 
        and operations facility in Italy, and space for a trainer in 
        California for MQ-4C Triton high endurance unmanned aerial 
        vehicles,
  --Builds a new Maritime Surveillance Systems Facility in Virginia 
        that will expand our ability to operate, maintain and test 
        surveillance systems that perform data collection and 
        dissemination for the Fleet, and
  --Constructs a Littoral Combat Ship (LCS) mission module readiness 
        center in Mayport and converts warehouse space into an 
        operational support facility for LCS shore-based operations in 
        San Diego.

    Our MILCON program also supports Combatant Commander requirements 
by constructing a land-based Aegis Ashore Missile Defense Complex site 
in Poland in support of European Phased Adaptive Approach. The Poland 
site will complement our Aegis Ashore site in Romania, which will 
achieve initial operational capability by the end of this year. In the 
Middle East we are upgrading port facilities and constructing a new 
Ship Maintenance Support Facility in Bahrain. We are also providing 
secure space for carrier air wing facilities funded by the Government 
of Japan in Iwakuni.
    Naval Shipyards and depots are critical to maintaining the 
warfighting readiness of our force. We will continue to prioritize 
investments to address the most critical safety and productivity 
deficiencies. To reduce CVN downtime, PB 2016 includes projects in 
Washington State to construct a nuclear regional ship maintenance 
support facility and to upgrade utilities and support structure at the 
only CVN-capable dry dock in the Pacific. Our budget submission also 
proposes to repair waterfront utility systems at Norfolk Naval Shipyard 
in Virginia and consolidate welding school shops in Hawaii. These 
MILCON projects, combined with other facilities projects and equipment 
investment, enable the Department to exceed the minimum 6 percent 
investment in Naval Shipyards and Depots described in 10 USC 2476, 
achieving a projected 7.4 percent investment in fiscal year 2016. 
Additionally, in fiscal year 2015, the Department is on track to exceed 
the target with a projected 6.3 percent investment. We appreciate the 
committee's support as we continue to invest in our shipyard 
infrastructure.
    PB 2016 makes significant investments in improving the reliability, 
efficiency and security of our utilities systems and support 
infrastructure. This investment, spanning seven different locations in 
the United States and Guam, is focused on increasing energy resiliency 
at our operational facilities, upgrading energy distribution systems, 
modernizing power grids and recapitalizing waste disposal/treatment 
systems.
    To protect our critical infrastructure, PB 2016 includes waterfront 
upgrades in Washington State to meet security requirements for our 
strategic weapons and construction of a modern, secure, consolidated 
communications center in Virginia.
    An improvement over last year's program, PB 2016 includes three 
projects to improve the quality of life for our sailors and their 
families. New unaccompanied housing will be constructed for sailors 
stationed at Naval Air Station Patuxent River, Maryland, and A-school 
students at Navy Technical Training Center Corry Station, Florida. PB 
2016 also includes the construction of a new child development center 
to increase our child development capacity in Yokosuka, Japan.
    Finally, we are funding the relocation of a reserve center from 
off-base leased space to a new on-base reserve training facility at 
Naval Air Station Fallon, Nevada.
            base operating support and facility investments
    As we operate our installations, PB 2016 maintains the Navy's 
commitment to adequately resource Fleet operations, sailor and family 
support programs, and child development. We continue to accept a 
deliberate level of risk in facility services, administrative support, 
and supply.
    PB 2016 funds the sustainment, restoration, and modernization of 
our facilities only enough to maintain the overall condition of our 
most critical infrastructure for the short term. PB 2016 funds facility 
sustainment to 84 percent of the Department of Defense (DOD) model. 
Although this marks an improvement from the 70 percent programmed in PB 
2015, Navy is still below the DOD goal for 90 percent facilities 
sustainment.
    When restoring and modernizing our infrastructure, we prioritize 
life/safety issues and efficiency improvements to existing 
infrastructure and focus on repairing only the most critical components 
of our mission-critical facilities. By deferring less critical repairs, 
especially for non-operational facilities, we are allowing certain 
facilities to degrade and causing our overall facilities maintenance 
backlog to increase. We acknowledge that this backlog must eventually 
be addressed.
                                housing
    Our PB 2016 request supports Navy readiness by providing sailors 
and their families the opportunity for suitable, affordable and safe 
housing worldwide. We rely on our communities to house sailors and 
their families. Where options are not available in the local community, 
Navy provides housing through Government-owned housing, leased housing, 
or Public-Private Venture (PPV) housing projects.
    Navy's PB 2016 Family Housing request provides oversight of nearly 
40,000 PPV homes, funds the operation and maintenance of 7,500 
Government-owned homes, leases about 1,800 units, and renovates 20 
existing family homes in Wallops Island, Virginia. We continue to reap 
the benefits of family housing privatization with over 99 percent of 
Navy family housing in the continental United States and Hawaii 
privatized. For our Government-owned units, predominately located 
overseas, we continue to work toward meeting the DOD goal of bringing 
90 percent of our units up to ``adequate'' condition, which means they 
are rated as a ``1'' or ``2'' on a 4-point scale. Navy's family housing 
inventory is currently 77 percent adequate and, at current funding 
levels, we will meet DOD's adequacy goal in 2021.
    The Navy continues to manage housing for our unaccompanied Sailors 
within today's fiscal constraints. I am proud that we will complete our 
Homeport Ashore effort this year, meeting our goal of providing a bed 
ashore to each shipboard sailor while in homeport. In addition to our 
MILCON projects, we plan to renovate 10 barracks in fiscal year 2016 to 
work towards meeting the DOD goal of achieving 90 percent adequacy. 
Unfortunately, this level of investment is not sufficient to offset the 
steady degradation of facilities and improve the overall condition of 
our unaccompanied housing inventory. At current funding levels, Navy's 
unaccompanied housing will remain at approximately 50 percent adequacy.
                  base closure and realignment (brac)
    The Navy fully supports BRAC as a process to assess opportunities 
to properly align our domestic infrastructure with our evolving force 
structure and laydown. Under the previous BRAC efforts, the Navy has 
been able to realize approximately $4.4 billion in annual recurring 
savings.
    We appreciate the support of the Congress in providing additional 
fiscal year 2015 funds for environmental cleanup at BRAC properties. 
For fiscal year 2016, the Department has programmed $157 million to 
continue cleanup efforts, caretaker operations, and property disposal. 
By the end of fiscal year 2014, we disposed of 93 percent of our excess 
property identified in previous BRAC rounds through a variety of 
conveyance mechanisms, with approximately 12,710 acres remaining. Of 
the original 131 installations with excess property, the Navy has 17 
installations remaining with property to dispose.
    Last year, the Department of Navy completed the transfer of 624 
acres at Naval Station Alameda, California, to the Department of 
Veterans Affairs under a no-cost transfer. We also completed 
radiological surveys of over 700 residential housing units at Naval 
Station Treasure Island and signed a Development Conveyance with 
Treasure Island Development Authority to allow initial property 
transfers to begin in fiscal year 2015. We reduced our overall number 
of installations by four last year, completing final disposals at Naval 
Support Activity New Orleans, Louisiana, Naval Air Station Cecil Field, 
Florida, and Naval Reserve Centers in Akron, Ohio, and Reading, 
Pennsylvania.
    Although cleanup and disposal challenges from prior BRAC rounds 
remain, we continue to work with regulatory agencies and communities to 
tackle complex environmental issues and provide creative solutions to 
support redevelopment priorities, such as Economic Development 
Conveyances with revenue sharing.
                               conclusion
    The Navy will continue to carefully and deliberately manage the 
risk we are taking in our Shore enterprise, with the understanding that 
chronic underinvestment in our shore infrastructure takes a toll on our 
ability to support deploying forces. Our Shore infrastructure must be 
sustainable and resilient to changes in our operating environment and 
fiscal climate. Navy installations, and the men and women who operate 
them, are key enablers to our Navy's warfighting readiness. Thank you 
again for your steadfast support of Navy's shore readiness programs and 
your personal commitment to our sailors, Navy civilian workforce and 
their families.

    Senator Kirk. Mr. Clifton, let me ask you about Marine 
Corps needs.
STATEMENT OF DAVID R. CLIFTON, SES, DEPUTY ASSISTANT 
            DEPUTY COMMANDANT (FACILITIES, 
            INSTALLATIONS AND LOGISTICS), AND DEPUTY 
            COMMANDER, MARINE CORPS INSTALLATIONS 
            COMMAND HEADQUARTERS, U.S. MARINE CORPS
    Mr. Clifton. Chairman Kirk, Ranking Member Tester, and 
distinguished members of the subcommittee, on behalf of the 
Commandant General Dunford and the thousands of marines, 
sailors, and hardworking civilians and their family members who 
depend on the resources provided by this subcommittee and the 
Congress, we thank you for your support.
    The fiscal year 2016 Marine Corps military construction 
budget funds 22 projects at $719 million and sustains support 
of 24 Marine Corps installations, 186 Reserve centers, and a 
variety of other activities on other service's installations, 
such as the Security Force Regiment at Yorktown, Virginia.
    The primary mission of these installations is to provide a 
platform from which our marines deploy and from which they can 
conduct realistic training that is necessary for them to 
accomplish difficult missions and return home to their families 
safely.
    Accordingly, our facility investment is prioritized to 
support training operations, new weapons systems, and force 
presence as required by the Defense Strategic Guidance.
    The fiscal year 2016 budget also improves safety, security, 
environmental compliance, replaces a few aging infrastructure, 
and demolishes inadequate buildings that are no longer needed.
    As far as trends are concerned, the commandant has already 
testified that the Marine Corps' first priority is to reinforce 
the near-term readiness capabilities needed by marines who are 
deployed. To accomplish that priority in fiscal year 2016, the 
Marine Corps must accept risk in our infrastructure and base 
operations, including our quality-of-life programs.
    Although the fiscal year 2016 budget is better than the 
2015 budget, funding remains insufficient to prevent 
accelerated deterioration of our 12,000 buildings, range 
complexes, barracks, and airfields.
    By fiscal year 2020, given the current funding projections, 
marines will occupy over 2,500 inadequate, aged buildings with 
insufficient and failing systems.
    The fiscal year 2016 budget does maintain all 1,300 houses 
that the Marine Corps owns in adequate condition. And due to 
the public-private housing venture, all 23,000 of those 
privatized houses are expected to remain in good condition.
    In conclusion, your marines are the Nation's expeditionary 
force in readiness. We focus our resources on maintaining the 
readiness of our forward-deployed marines. Although our 
investment in the future, modernization, and in our 
infrastructure is less than what we believe is required, we 
will always be diligent stewards of the assets provided us, as 
typified by our recent success in obtaining a clean audit 
opinion.
    Thank you for the time and the opportunity to speak on 
behalf of our marines and our sailors and their family members, 
and also the thousands of hardworking civilians who support 
them.
    [The statement follows:]
                 Prepared Statement of David R. Clifton
    Chairman Kirk, Ranking Member Tester, and distinguished members of 
the subcommittee, I appreciate the opportunity to discuss the Marine 
Corps' facilities infrastructure programs which are critical to our 
ability to train forces and be ready. Thanks to the strong support we 
have received in the past from Congress, the Marine Corps has been able 
to make great improvements in the quality and condition of facilities 
on our bases and stations.
    Marine Corps bases and stations represent an irreplaceable national 
asset today and as far into the future as we can project. They are 
fundamental to combat readiness, particularly the pre-deployment 
training, launching, sustaining, and reconstituting of Marine operating 
forces. Additionally, those bases and stations are and will continue to 
be integral to the quality of life of marines, sailors, and their 
families through provision of a range of support facilities and related 
infrastructure.
    The operation and maintenance of these installations as well as 
their future development and use require planning, wise investment, and 
sound execution. Numerous Marine-Corps wide efforts are underway to 
ensure Marine Corps installations are ready, responsive, and capable of 
meeting current and future support requirements of the Marine Corps 
force.
    The Marine Corps has more than $58 billion of facilities that are 
used to train, house, and provide quality of life for marines and their 
families. These facilities are used to perform mission-essential tasks 
and must be appropriately maintained. Adequately sustaining facilities 
is the highest facilities management priority.
                        impact of sequestration
    As the Commandant of the Marine Corps has stated in earlier 
testimony, the Marine Corps' share of fiscal year 2013 sequestration 
cuts, combined with a sustained high level of operations, will 
challenge our future ability to be the Nation's force-in-readiness. The 
Marine Corps continues to evaluate long-term impacts of sequestration. 
The fiscal challenges we face today will be exacerbated and significant 
challenges will be forced on all the services if fiscal year 2016 
sequestration reductions are implemented. Through thorough analysis, we 
have determined that the Marine Corps will assume significant risk in 
long-term modernization and infrastructure sustainment. Though the 
Marine Corps has made significant progress over the last 8 years in 
replacing old and unsatisfactory buildings, delayed or cancelled 
military construction projects will have long term impacts on our 
future operating budget, force posture, and the overall welfare of our 
Marines.
                         military construction
    Generally, the need for Marine Corps MILCON is driven by the 
Operating Force and Marine Corps wide mission requirements such as:

  --New platform or weapons introduction
  --Relocating forces
  --Meeting a force protection or safety standard
  --Eliminating or replacing facilities in inadequate condition
  --Meeting new and improved training standards
  --Modernizing critical infrastructure
  --Improving utilities reliability to support readiness
  --Meeting environmental and energy reduction mandates
  --Improving training areas to include aerial/ground ranges
  --Acquiring land as necessary for Operating Force use

    The Marine Corps' fiscal year 2016 Military Construction (MILCON) 
program includes 22 projects valued at approximately $719 million. The 
primary focus areas of the fiscal year 2016 Marine Corps MILCON budget 
are to support new capabilities and platforms, provide facilities to 
support training of the modern 21st century force, recapitalization and 
replacement of inadequate facilities, and meeting safety and 
environmental mandates. Our fiscal year 2016 program accomplishes the 
following:

  --Supports new aviation platforms such as F-35, KC-130J, CH-53K, and 
        RQ-21A with new aircraft maintenance facilities and aircraft 
        parking aprons.
  --Improves quality of life for junior enlisted Marines at Marine 
        Corps Base Hawaii by providing a new barracks.
  --Provides a new live fire training range to support current and 
        future ground unit training on Guam.
  --Provides for Embassy security guard training and operations at 
        Marine Corps Base Quantico.
  --Completes the expansion of Townsend Bombing Range initiated and 
        approved by Congress in 2014 to enable training with precision 
        guided munitions at this location.
  --Improves airfield lighting and electrical distribution system at 
        the Marine Corps Base Hawaii airfield at Kaneohe Bay.
  --Improves and ensures safety, security, and environmental compliance 
        posture at various bases.
  --Improves utility system reliability at various bases in order to 
        support training and day-to-day operations.
  --Replaces numerous inadequate and obsolete facilities in order to 
        improve operations and training.
               infrastructure sustainment and restoration
    The President's budget for fiscal year 2016 funds 81 percent of the 
OSD facilities sustainment model requirement for the Marine Corps (an 
increase over the fiscal year 2015 level). The OSD guideline is to fund 
90 percent of the requirement. We remain aware that underfunding 
facilities sustainment increases the rate of degradation of Marine 
Corps infrastructure which leads to more costly repairs, restoration, 
and new construction in the future. We are taking strategic risk in 
infrastructure sustainment to support current operational readiness for 
deployed forces.
    When restoring and modernizing our infrastructure, we prioritize 
life/safety issues and efficiency improvements to existing 
infrastructure and focus on repairing only the most critical components 
of our mission critical facilities. By deferring less critical repairs, 
especially for non-mission critical facilities, we are allowing certain 
facilities to degrade and causing our overall facilities maintenance 
backlog to increase. We acknowledge this backlog must eventually be 
addressed.
                             family housing
    Our world-wide family housing inventory is 96 percent privatized. 
Privatization has improved the homes in which our families live and 
provides community support facilities such as community centers, 
playgrounds, and ``green spaces'' that help create neighborhoods and a 
sense of community for our marines and their families. Utilizing both 
traditional military construction and our privatization partners the 
Marine Corps will continue to build and improve the homes necessary to 
supplement local community housing.
    The Marine Corps is not requesting any new construction in fiscal 
year 2016 through either traditional MILCON or through the use of 
privatization authorities. However, we are requesting $7.9 million for 
the sustainment and restoration of 18 enlisted townhomes at MCAS 
Iwakuni, Japan in order to complete the final phase of renovation for 
the Monzen Townhouse neighborhood. This will provide much needed 
improvements to quality of life for our marines and their families 
stationed overseas.
                      marine corps in the pacific
    The Marine Corps continues to rebalance its force lay-down in the 
Pacific to support the Defense Strategic Guidance. The fiscal year 2016 
budget request includes funding to support the arrival of new aviation 
assets and personnel to Marine Corps Base Hawaii and Japan. 
Additionally, the budget includes $126 million to construct a live-fire 
training range complex in Guam that will support current and future 
training needs of the Marine Corps and our allied partners.
    Guam, and the relocation of marines to this island, remains an 
essential part of the United States' larger Asia-Pacific strategy of 
achieving a more geographically distributed, operationally resilient 
and politically sustainable force posture in the region. We appreciate 
the removal of the restrictions from the National Defense Authorization 
Act (NDAA) for fiscal year 2014, as well as the language in Section 
2822 in the National Defense Authorization Act for fiscal year 2015 
permitting us to enter into a Refuge agreement with the U.S. Fish and 
Wildlife Service. Together, these provisions will allow us to move 
forward on the essential Guam component of our Pacific force laydown 
plan.
    Last July, we provided Congress with our revised Guam Master Plan. 
Under this plan, also referred to as ``the distributed laydown'', 
approximately 5,000 marines and 1,300 dependents will come to Guam 
versus the original plan that had considered approximately 8,600 
marines and 9,000 dependents. The estimated cost, scope, and schedule 
for the military construction and Government of Japan funded projects 
necessary to carry out the revised plan were detailed in the Guam 
Master Plan. In the next year, the Government of Japan will commit $176 
million to construct a Driver Convoy Course and a complex for Urban 
Terrain Range Operations at Anderson Air Force Base. To date, we have 
received in our Treasury almost $1 billion in Japanese funding toward 
completion of the relocation. This in itself is indeed a strong 
statement of the Japanese commitment to the relocation.
                               conclusion
    Our infrastructure programs are an important part in maintaining 
our high state of readiness as the Nation's crisis response force. The 
fiscal year 2016 budget request supports this premise. As funding 
becomes more constrained in the future, the Marine Corps will continue 
to rely on the sound stewardship of existing facilities and 
infrastructure to support our needs.
    Thank you for the opportunity to testify before you today and 
appreciate your consideration of our fiscal year 2016 budget request. I 
look forward to working with you to sustain the warfighting capability 
and quality of life of the Marine Corps.

    Senator Kirk. General Green.

                      Department of the Air Force

STATEMENT OF BRIGADIER GENERAL TIMOTHY S. GREEN, DEPUTY 
            CHIEF OF STAFF FOR LOGISTICS, INSTALLATIONS 
            AND MISSION SUPPORT, AND AIR FORCE DIRECTOR 
            OF CIVIL ENGINEERS, HEADQUARTERS, U.S. AIR 
            FORCE
    General Green. Chairman Kirk, Ranking Member Tester, 
members of the subcommittee, I am honored today to represent 
America's airmen, Active Duty, Air National Guard, Air Force 
Reserve, and civilians, and discuss the Air Force's fiscal year 
2016 military construction, housing, and BRAC request.
    Our $1.6 billion total force fiscal year 2016 MILCON 
request is more than 65 percent higher than last year's budget. 
I want to emphasize that these funds and requested projects 
support the National Defense Strategy and critical Air Force 
priorities.
    At the macro level, just over 20 percent of the request 
supports combatant commanders' priorities and requirements. 
About 17 percent of the MILCON aligns with the Secretary of the 
Air Force's priorities of nuclear, space, and cyber. Twenty-six 
percent is focused on today's readiness. And roughly 16 percent 
of our request beds down our modernized weapons systems. And 
finally, our fiscal year 2016 request includes vital quality-
of-life funding for military family housing overseas and 
dormitories for our airmen.
    The fiscal year 2016 President's budget also requests 
authority from Congress to conduct a BRAC round 2017. The Air 
Force has identified approximately 30 percent in excess 
infrastructure capacity, and we believe BRAC would provide the 
most comprehensive, transparent, and collaborative way to align 
infrastructure capacity with mission requirements.
    I want to thank you for your support in giving the Air 
Force much needed relief in 2014 and 2015 from untenable 
sequestration levels. Without Budget Control Act relief in 
fiscal year 2016, the risk assumed to Air Force infrastructure 
could have severe impacts on mission readiness.
    At BCA levels, the Air Force would expect a reduction in 
military construction funding that would touch every area of 
our strategy. It would likely result in reduced funding to 
support combatant commands, upgrade critical nuclear 
infrastructure, ensure facilities are in place for our 
modernized weapons systems, as well as recapitalization of 
housing and dormitories. The Air Force would also expect 
similar reductions in fiscal year 2016 facility sustainment, 
restoration, and modernization accounts, forcing us to 
prioritize day-to-day maintenance activities at the expense of 
much needed facility repairs.
    The Air Force's fiscal year 2016 budget request allows us 
to begin addressing necessary infrastructure recapitalization 
and facility sustainment and repair backlog that has 
contributed to the degradation of our combat support 
capabilities.
    Please keep in mind that even at the fiscal year 2016 
President's budget levels, the Air Force remains stressed to 
meet the National Defense Strategy.
    Chairman Kirk, Ranking Member Tester, and members of the 
subcommittee, thank you again for the opportunity to testify 
today, and I will look forward to your questions.
    [The statement follows:]
        Prepared Statement of Brigadier General Timothy S. Green
                              introduction
    The Air Force's fiscal year 2016 President's budget (PB) request 
sets us on the path to meeting defense strategy as set forth in the 
2014 Quadrennial Defense Review (QDR) through strategy-based long-term 
resourcing decisions. This budget submission is rooted in necessity and 
is based upon our long-term strategy and vision to provide ready 
installations supporting the Secretary and Chief of Staff of the Air 
Force's three priorities of balancing today's readiness with tomorrow's 
modernization, taking care of our people, and making every dollar count 
to help ensure we can maintain and field a credible and affordable 
future force.
    The Air Force's fiscal year 2016 PB sets us on a path to provide 
the Air Force America needs and deserves. However, even at the fiscal 
year 2016 PB level, the Air Force remains stressed to meet the defense 
strategy. The PB request is informed by our guiding principles which 
support the Air Force's core missions. We used a deliberate process to 
define what the Air Force needs to be ready today and what capabilities 
we need to invest in now in order to fight future threats. The end 
result is a budget which supports the defense strategy, is anchored to 
the Air Force 30-year plan, and meets combatant commanders' needs.
    If sequestration funding levels return in fiscal year 2016, the Air 
Force will not be able to meet the entire defense strategy, nor sustain 
its asymmetric advantage over potential peer competitors. Additionally, 
these levels will cause continued degradation of infrastructure and 
installation support. The Air Force would expect a reduction in 
Military Construction funding resulting in reduced support to combatant 
commands, reduced funding to upgrade the nuclear enterprise and support 
new weapons systems beddown, and elimination of permanent party 
dormitories from the fiscal year 2016 budget request. The Air Force 
would also expect similar reductions in fiscal year 2016 facility 
sustainment, restoration and modernization funding, forcing Air Force 
priority on day to day facility maintenance at the expense of much 
needed facility repairs.
    Our unequalled security, economic, and political advantages depend 
on investment in an Air Force that is able to easily succeed against 
any competitor, in any environment. In order to ensure a trained and 
ready force to engage in a full range of contingencies and threats, at 
home and abroad, we must provide the facilities and support that enable 
training, operations, and maintenance of increasingly complex and 
technology dependent systems. Now more than ever, the Air Force must 
make smart investments in its installations through military 
construction (MILCON) and facility sustainment.
                             installations
    Ready installations are an integral part of ensuring a ready Air 
Force. The Air Force views its installations as foundational platforms 
comprised of both built and natural infrastructure which: (1) serve as 
the backbone for Air Force enduring core missions--we deliver air, 
space and cyberspace capabilities from our installations; (2) enable 
worldwide access when our national interests are at risk or 
international partners need assistance; (3) foster partnership-building 
by stationing our airmen side-by-side with our Allies and Coalition 
partners; and (4) send a strategic message to both allies and 
adversaries--installations signal commitment to our friends, and intent 
to our foes. Taken together, these strategic imperatives require us to 
provide efficiently operated, sustainable installations to enable the 
Air Force to support the defense strategy as set forth in the 2014 QDR.
    In its fiscal year 2015 President's budget request, the Air Force 
attempted to strike the delicate balance between a ready force for 
today with a modern force for tomorrow while also recovering from the 
impacts of sequestration and adjusting to budget reductions. To help 
achieve that balance, the Air Force elected to accept risk in 
installation support, MILCON, and facilities sustainment in fiscal year 
2015. However, in its fiscal year 2016 request, the Air Force begins to 
ameliorate the impacts of that risk by increasing funding for 
installations in all three of the areas noted above.
    In total, the Air Force's fiscal year 2016 PB request for 
installations is $1.9 billion more than our fiscal year 2015 PB request 
and contains $4.8 billion for MILCON, facility sustainment, restoration 
and modernization, as well as another $331.2 million for Military 
Family Housing operations and maintenance and $160.5 million for 
Military Family Housing Construction. For sustainment, the Air Force 
requests $2.4 billion; for restoration and modernization, $850 million; 
and for military construction, $1.59 \1\ billion. At these levels, the 
Air Force funds Facilities Sustainment to 80 percent of the OSD modeled 
requirement. The increase in MILCON begins infrastructure 
recapitalization while maintaining support to combatant commander 
(COCOM) requirements, the nuclear enterprise, new weapon system 
beddowns, and provides equitable distribution of $203.8 million to the 
Reserve components.
---------------------------------------------------------------------------
    \1\ $1.59 billion is the Total Force funding request including 
Active, Guard and Reserve.
---------------------------------------------------------------------------
                               readiness
    The Air Force fiscal year 2016 PB request seeks to balance 
readiness for today's fights, while also modernizing our infrastructure 
for the future. The Air Force's fiscal year 2016 budget proposes 
investments in infrastructure to support the 2014 QDR strategic 
guidance and combatant commanders' stated readiness needs in the 
following areas: nuclear defense operations (NDO); space; cyberspace; 
intelligence, surveillance and reconnaissance (ISR); and the Asia-
Pacific theater.
    Our fiscal year 2016 PB supports Nuclear Enterprise priorities and 
includes three projects, totaling $144 million. With this budget 
submission, the Air Force intends to provide a new state-of-the- art 
Weapon Storage Facility at F.E. Warren AFB, Wyoming which consolidates 
22 aging facilities (some of which have been in service since the 
1960s), achieving a 19 percent reduction in facility footprint while 
addressing security and operational inefficiencies through 
recapitalization. The Weapon Storage Facility at F.E. Warren will 
become the model for four future weapon storage facilities in the 
decades ahead. The fiscal year 2016 budget also includes investment to 
revitalize the Malmstrom AFB, Montana, Tactical Response Force Alert 
Facilities as well as the Whiteman AFB, Missouri, Consolidated Stealth 
Operations and Nuclear Alert Facility. Together, these projects will 
consolidate scattered installation functions, provide adequately sized 
and configured operating platforms, as well as reduce critical response 
times to generate alert sorties.
    The Air Force also focused on space, cyberspace, and ISR 
investments in the MILCON budget request. These investment areas 
account for eight projects in the proposed fiscal year 2016 PB, 
totaling $172 million. The Air Force continues its multi-year efforts 
to construct the U.S. Cyber Command Joint Operations Center at Fort 
Meade, Maryland; strengthen its space posture through information and 
communication facilities; and enhance ISR readiness with remotely 
piloted aircraft facilities, intelligence targeting facilities, as well 
as digital ground stations.
    Consistent with defense strategy as set forth in the 2014 QDR, the 
Asia-Pacific Theater remains an important strategic area for the Air 
Force where it will make an $85 million investment in fiscal year 2016 
to ensure our ability to project power into areas which may challenge 
our access and freedom to operate, and continue efforts to enhance 
resiliency. Guam remains one of the most vital and accessible locations 
in the western Pacific. For the past 9 years, Joint Region Marianas-
Andersen AFB, Guam has accommodated a continuous presence of our 
Nation's premier air assets, and will continue to serve as the 
military's strategic and operational center in support of a spectrum of 
potential crises in the Pacific.
    To further support Pacific Command's strategy, the Air Force is 
committed to hardening critical structures, mitigating asset 
vulnerabilities, increasing redundancy, fielding improved airfield 
damage repair kits and upgrading degraded infrastructure as part of the 
Asia-Pacific Resiliency program. In 2016, the Air Force plans to 
construct a hardened Wing Installation Control Center to sustain Guam's 
remote operations, ensure resiliency with the Dispersed Maintenance 
Spares and Storage Facility, and continue our efforts to upgrade Guam's 
South Ramp Utilities, supporting a Continuous Bomber Presence, Tanker 
Task Force, Theater Security Packages, and Global Hawk beddown. The Air 
Force also wraps up its development of the Pacific Regional Training 
Center by constructing a permanent road to support facilities located 
at Northwest Field. This Regional Training Center will enable mandatory 
contingency training and enhance the operational capability to 
establish, operate, sustain, and recover a ``bare base'' at forward-
deployed locations, and foster opportunities for partnership building 
in this vitally important area of the world.
    This year's President's budget request also includes $252 million 
for additional requirements at four COCOMs extending beyond NDO, space, 
cyberspace, ISR, and the Asia-Pacific Theater. In particular, the Air 
Force continues with phase two of the U.S. European Command Joint 
Intelligence Analysis Center Consolidation at RAF Croughton, United 
Kingdom. Our total fiscal year 2016 COCOM support makes up 21 percent 
of the Air Force's MILCON request.
                             modernization
    The fiscal year 2016 PB request also includes critical 
infrastructure investments to support the Air Force's modernization 
programs, including the beddown of the F-35A, KC-46A, and the 
Presidential Aircraft Recapitalization efforts. The Air Force's ability 
to fully operationalize these new aircraft depends not just on 
acquisition of the aircraft themselves, but also on the construction of 
the necessary hangars, training facilities, airfields and fuel 
infrastructures funded within this fiscal year 2016 budget.
    This year's President's budget request includes $54.5 million for 
the beddown of the KC- 46A at four locations. This consists of $10.4 
million at Altus AFB, Oklahoma, the Formal Training Unit (FTU); $4.3 
million at McConnell AFB, Kansas, the first Main Operating Base (MOB 
1); $2.8 million at Pease International Tradeport Air National Guard 
Base (ANGB), New Hampshire, the second Main Operating Base (MOB 2); and 
$37 million at Tinker AFB, Oklahoma, for KC-46A depot maintenance.
    This request also includes $198.3 million for the beddown of the F-
35A at five locations, consisting of $69 million at Nellis AFB, Nevada; 
$56.7 million at Luke AFB, Arizona; $26.9 million at Hill AFB, Utah; 
$37 million at Eielson AFB, Alaska; and $8.7 million at Eglin AFB, 
Florida.
    In preparation for the Presidential Aircraft Recapitalization 
acquisition, the Air Force's 2016 budget request accounts for the 
planning and design requirements essential to construction required to 
beddown these new aircraft. In total, our fiscal year 2016 request 
represents a balanced approach ensuring critical infrastructure 
requirements to meet mission needs and operational timelines.
                                 people
    During periods of fiscal turmoil, we must never lose sight of our 
Airmen and their families. Airmen are the source of Air Force airpower. 
Regardless of the location, the mission, or the weapon system, our 
airmen provide the knowledge, skill, and determination to fly, fight 
and win. There is no better way for us to demonstrate our commitment to 
service members and their families than by providing quality housing on 
our installations. The Air Force has privatized military family housing 
(MFH) at each of its stateside installations, including Alaska and 
Hawaii, via 32 projects at 63 bases for 53,240 end-state homes.
    The Air Force continues to manage approximately 18,000 Government-
owned family housing units at overseas installations. Our $331.2 
million fiscal year 2016 Military Family Housing Operations and 
Maintenance (O&M) sustainment funds request allows us to sustain 
adequate units, and our $160.5 million fiscal year 2016 request for MFH 
MILCON funds allows us to upgrade and modernize older homes to meet the 
housing requirements of our Airmen, their families and the Joint 
service members the Air Force supports overseas.
    Similarly, our focused investment strategy for dormitories enables 
the Air Force to remain on track to meet the DOD goal of 90 percent 
adequate permanent party dorm rooms for unaccompanied Airmen by 2017. 
The fiscal year 2016 President's budget MILCON request includes four 
dormitories at Offutt AFB, Nebraska; Ellsworth AFB, South Dakota; Altus 
AFB, Oklahoma; and Joint Base San Antonio, Texas. With your support, we 
will continue to take care of our most valued asset, our airmen and 
their families.
              european infrastructure consolidation (eic)
    The United States remains committed to NATO and our presence in 
Europe. The Air Force invested in its European infrastructure in the 
last several years in order to ensure it is ready and able to defend 
U.S. interests and meet its commitment to our Allies and Partners now 
and in the future. At the same time, in the context of a challenging 
fiscal environment, the Department of Defense recently sought greater 
infrastructure efficiencies in Europe and to ensure it applies 
resources where they can have the greatest effect.
    Two years ago, the Secretary of Defense directed a European 
Infrastructure capacity analysis to provide the basis for reducing 
long-term expenses through footprint consolidations, while retaining 
current and projected force structure. Under OSD direction, the Air 
Force used previously established Base Realignment and Closure (BRAC) 
processes to analyze the infrastructure capacity of 128 total sites, 
including six Main Operating Bases and six Forward Operating Sites in 
Europe.
    In January 2015, the Secretary of the Defense approved the results 
of the European Infrastructure Consolidation (EIC) process. This 
process produced eight consolidation opportunities that will eliminate 
excess infrastructure capacity, consolidate missions, and produce 
savings without reducing force structure. In the United Kingdom, the 
Air Force will divest of RAF Mildenhall and consolidate intelligence 
and support activities from RAF Alconbury and RAF Molesworth to RAF 
Croughton. The Air Force also reaffirmed previous decisions to 
streamline operations at Moron Air Base, Spain, and Lajes Field, 
Portugal, and returned four small unused facilities back to their 
respective host nations.
    The Air Force European Infrastructure Consolidation opportunities 
will cost approximately $1.1 billion (fiscal year 2016-fiscal year 
2021) to implement, but will enable the Air Force to save $315 million 
a year, while still maintaining our readiness and responsiveness 
capabilities in Europe. Most of the implementation costs are paid for 
through previously programmed European Infrastructure Consolidation 
(EIC) funding.
    The EIC ensures Air Force installations in Europe are right-sized 
and at the right location. Our capability in Europe, along with our 
ability to meet commitments to Allies and partners, is not diminished 
by these actions. The Air Force is maintaining sufficient 
infrastructure in Europe to support six Combatant Commands, the North 
Atlantic Treaty Organization, and U.S. strategic allies through 
permanently stationed forces, additional rotational forces, and 
contingency requirements. The EIC adjustments will allow the Air Force 
to address emerging concerns in Europe and elsewhere, by focusing 
resources on critical operational support infrastructure.
    We have consulted closely with our allies on our specific plans and 
the broader security picture. These consolidations, force realignments, 
and new deployments were validated through the EIC and other processes 
and approved by the Secretary of Defense, in full coordination with the 
U.S. State Department, and after discussions with the host nations.
                       closures and realignments
    Building on the success of the European Infrastructure 
Consolidation process, the Air Force strongly supports DOD's request 
for an fiscal year 2017 BRAC round in the United States.
    In fiscal year 2015 budget discussions, Congress requested that the 
Services update their analyses of CONUS infrastructure capacity based 
upon current infrastructure data and current force structure 
projections.
    The Air Force has completed a high-level capacity analysis, 
comparing current infrastructure capacity to projected force structure 
and mission requirements. The results of the analysis indicate the Air 
Force has approximately 30 percent excess infrastructure capacity.\2\ 
This excess capacity results from decreases in Air Force personnel and 
force structure outpacing reductions in infrastructure. Since the last 
BRAC round in 2005, the Air Force has 50,000 fewer personnel and 500 
fewer aircraft in its planned force structure.
---------------------------------------------------------------------------
    \2\ The 30 percent excess infrastructure capacity estimate was 
calculated using the same approved methodology that has been employed 
to measure excess infrastructure prior to previous rounds of BRAC.
---------------------------------------------------------------------------
    Since the last congressionally directed round of BRAC in 2005, the 
Air Force has worked diligently to identify new opportunities and 
initiatives to enable it to maximize the impact of every dollar. We 
have demolished excess infrastructure, recapitalized our family housing 
through privatization, unlocked the fiscal potential of under-utilized 
resources through leasing and partnerships, and reduced our energy 
costs. All of which have paid dividends. But these efforts are not 
enough to allow us to continue to fund infrastructure we do not need 
and pale in comparison to the savings that can be achieved with BRAC 
authorities.
    Despite our best efforts and innovative programs, the Air Force 
must continue to spend money maintaining excess infrastructure that 
would be better spent recapitalizing and sustaining our required 
infrastructure and weapons systems, training to improve readiness, and 
investing in the quality of life needs of its Airmen. The Air Force 
recognizes that it can achieve its greatest savings to smartly reinvest 
when fully divested of unneeded infrastructure. Therefore we strongly 
support DOD's requests for another round of BRAC; specifically an 
efficiency BRAC focused on reducing the Air Force's 30 percent excess 
infrastructure capacity and ultimately reducing the demand on 
resources.
                               conclusion
    The Air Force made hard strategic choices during formulation of 
this budget request. The Air Force attempted to strike the delicate 
balance between a ready force for today with a modern force for 
tomorrow while also recovering from the impacts of sequestration and 
adjusting to budget reductions. Our fiscal year 2016 PB request begins 
the recovery of installation and infrastructure investments necessary 
to meet the defense strategy while maintaining support to combatant 
commander requirements, the nuclear enterprise, new weapon system 
beddowns, and provides equitable distribution to our Reserve 
components. However, a return to sequestered funding levels will halt 
readiness recovery, cut capacity and slow modernization efforts as AF 
installations around the world will continue to experience 
infrastructure and installation support degradation.
    Finally, we continue to carefully scrutinize every dollar we spend. 
Our commitment to continued efficiencies, a properly sized force 
structure, and right-sized installations will enable us to ensure 
maximum returns on the Nation's investment in her airmen, who provide 
our trademark and essential airpower capabilities for the Nation.

    Senator Kirk. Thank you. Thank you, General. General 
Halverson, when I recently met with General Selva, the 
Combatant Commander of U.S. Transportation Command (TRANSCOM), 
he mentioned how important the Military Ocean Terminal Concord 
(MOTCO) pier was to TRANSCOM, to be able to make sure our 
forces in the Pacific would be ready for any contingencies. 
Could you tell me your comments on that project?
    General Halverson. Thanks, Senator.
    The military terminal there we have at Concord is vital. We 
commit $98 million in the fiscal year 2016 construction of that 
pier, Pier 2. It is important to us because it provides vital 
shipping for ammunition and stuff that are tied to the 
operations plans there in the Pacific.
    So, one, clearly it is a strategic capability that we do 
need to ensure that we have a trained and ready force, and the 
munitions available to exercise, if needed, especially for 
things like Korea and other places in the Pacific, so it is 
vital. We are committed to it. We have put money in there 
before, and we will continue to ensure that it is on our, with 
your approval, we will be working that in fiscal year 2016.
    Senator Kirk. Let me ask a question of Ms. Kern.

                     MISSILE DEFENSE SITE PROGRESS

    My top priority on this subcommittee is to make sure we 
build the missile defense site in Poland to make sure we can 
defend our NATO ally there. It is kind of important for us from 
Chicagoland to defend Poland.
    Could you comment on the progress on the Redzikowo site?
    Ms. Kern. Yes, sir.
    Navy is standing up two sites to support Aegis ashore, one 
in Romania and one in Poland, as part of the European Phased 
Adaptive Approach. This will enhance coverage of NATO territory 
and populations from ballistic missiles, as you know.
    Navy's MILCON project complements the Missile Defense 
Agency MILCON that builds the weapon system. We are 
constructing support facilities such as a galley, berthing, 
armory, access control, medical, and recreation space.
    We awarded the Romania MILCON in 2014, and the project is 
progressing well. The Romania site will achieve initial 
operating capability in fiscal year 2016.
    We applied the lessons we learned in Romania to our Poland 
project, as we were building it in the 1391. So pending 
authorization and appropriation of the budget, we anticipate 
being able to award the contract for Poland in February 2016.

                MARINE CORPS EMBASSY GUARD REQUIREMENTS

    Senator Kirk. Mr. Clifton, let me ask you about your 
request for $44 million for the Embassy Security Guard 
Facility.
    Can you comment on that?
    Mr. Clifton. Yes, sir. As you know, the requirement for 
Embassy guards across the world has grown by about a thousand, 
and we also have added a capacity for augmenting the Embassy 
guards with marines. So that money for construction is being 
utilized at Quantico to construct a barracks for the additional 
personnel and administrative and instructional support 
facilities to support the increase.
    Senator Kirk. General Green, let me ask about your request 
for about $95 million to upgrade the nuclear enterprise. I 
would say that most Americans would be pretty shocked to see 
the 60 Minutes piece on how bad the communications are and the 
infrastructure supporting the Minuteman missile force.

                     NUCLEAR ENTERPRISE INVESTMENT

    General Green. Yes, sir, thank you.
    You are right, I think everybody is concerned about the 
investment in the nuclear enterprise, and it is the Secretary 
of the Air Force's top MILCON priority.
    There are three projects in the fiscal year 2016 request. 
The most important one is the nuclear weapons storage facility 
at F.E. Warren Air Force Base, Wyoming, and it is really the 
down payment. It is going to be the first in a series of 
projects to upgrade all of our weapon storage facilities at all 
of our nuclear installations.
    So it is very critical to us in the future as we look 
forward. It is a big investment, and we appreciate the 
committee's support.
    We also have another important project I will tell you at 
Malmstrom, and that is an alert facility, a tactical alert 
facility, as we go through looking ahead. And again----
    Senator Kirk. The ranking member is very interested in 
Malmstrom.
    General Green. Yes, sir.
    Senator Kirk. And so is the State.
    General Green. So we are doing the large things, as well as 
the small things, because the details also matter in the 
nuclear enterprise. Thank you, sir.
    Senator Kirk. Thank you.
    Senator Tester.
    Senator Tester. Thank you, Mr. Chairman.
    Since Senator Udall has a meeting, I am going to cede my 
time to him for questions, if I might. Go ahead.

                   CANNON AIR FORCE BASE, NEW MEXICO

    Senator Udall. Senator Tester, thank you for the courtesy. 
And, Chairman Kirk, I think this hearing is of extreme 
importance, because it is not only about the projects that 
impact our States, as many of these projects do, but it is also 
about the future state of our military and the facilities our 
troops will have to train in and carry out their important 
mission.
    I think we can admit that some facilities are doing better. 
For example, I am glad to see that the Air Force and the 
Secretary of Defense have made it a priority to provide the 
resources to keep our Special Operations facility strong in New 
Mexico at Cannon Air Force Base. They have been a major 
recipient of that funding, and I think from my couple of visits 
there, things are going very well.
    However, with sequestration and tighter budgets, I am 
worried that we have a problem on the horizon. At bases where 
maintenance has been deferred and construction projects have 
been put on hold, there are looming shortfalls.
    In testimony earlier this year, Assistant Secretary Hammack 
put it this way, and I quote, she said, ``Facilities are 
failing at a rate faster than we are being funded.'' It is my 
understanding the Army now faces a $3 billion maintenance 
backlog, of which there is over $200 million at the White Sands 
Missile Range (WSMR).
    So, General Halverson, I appreciated speaking with you 
earlier in the week and you taking the time. With regard to 
White Sands, as you know, there is no other place like it in 
the country. For the benefit of my colleagues, it is the size 
of Delaware, Rhode Island, and the District of Columbia 
combined. And it has the largest Federal Aviation 
Administration (FAA) blackout area in the country.
    Furthermore, the sensors throughout the range require 
continual upkeep in order to enable them to provide the data to 
the testers who are testing important projects for all of the 
branches of the military.
    As a result of the budget cuts, the roads and the 
facilities at White Sands are starting to show signs of age and 
deterioration, and I am concerned that the testing capability 
at White Sands will be impacted if we don't get a handle on 
this issue soon.
    How concerned are you about this? What are the Army's plans 
to make the road and maintenance facilities a priority? And how 
can we work on this together?
    General Halverson. Thank you, Senator Udall. I do 
appreciate your support for the great White Sands Missile 
Range.
    As I told you, I was the commander of Fort Sill that had 
the old Fires force with the Air Defense Artillery (ADA) and 
stuff, and we really needed that capability to ensure that we 
do have our Patriot systems that can do their test firing and 
all the testing that is there. And I did command the 
Operational Test Command, as you all know, that does all the 
operational testing there.
    So it really is important, as you were saying, because it 
is of vital interest for us to be able to test to ensure the 
systems we put into our soldiers' hands will work and provide 
that deterrent defensive fire that we do need. So it is of 
concern.
    I think you hit it right, sir, and that is why we are 
already backlogged, like you said. And we really need to look 
at that. That is why we are concerned about sequestration and 
stuff, because within those accounts, another $2 billion could 
come out of the force, and we would lose a lot of flexibility.
    Things like roads, especially with the networks and stuff 
that you have at White Sands, we are looking at that. I talked 
to Tim Coffin when I went there, because I was there for an 
office call with him, and I saw the facilities. I have his 
concerns, and we are going to be putting them into what we can 
do with his ability to be able to repair roads and those types 
of things that he needs to have a quality-of-life issue and a 
safety issue for his post.
    Senator Udall. Thank you very much. We really look forward 
to working with you on that.

            WHITE SANDS MISSILE RANGE AIRSPACE COORDINATION

    General Green, a question about Holloman Air Force Base and 
the marshalling area there. There is a quote: ``Processes in 
place at Holloman now prevent aircraft from taking off into 
WSMR prior to the start of airspace time,'' and that is the end 
of the quote. The lack of this marshalling area will create 
further backlogs for trainees getting in and out of the runway 
because of limited airspace windows.
    My understanding is that there are other airspace 
coordination issues that remain unresolved between the Air 
Force and the Army with regard to the use of the WSMR complex, 
and that this marshalling area is just one of the Air Force's 
workarounds for these issues.
    Is that correct? And is that your understanding?
    General Green. Senator, I am not as familiar with the other 
airspace coordination issues. That is an operational issue more 
than a military construction issue, so if I can take that 
question for the record, we will get back with you with an 
appropriate answer and a complete answer.
    [The information follows:]

    In 2014, we formalized a relationship by signing a Memorandum of 
Agreement between White Sands Missile Range (WSMR) and Holloman Air 
Force Base. The memorandum reinforces the Office of the Secretary of 
Defense's Major Range and Test Facility Base policy that test 
activities at White Sands Missile Range are a higher priority than 
Holloman's training activities.
    Holloman also has reorganized the internal lateral and vertical 
dimensions of its training airspace and also modified its airspace 
control procedures to improve overall efficiency and training 
effectiveness. To improve airspace coordination and scheduling 
procedures, we have been simultaneously working with our Army partners. 
As an example, we are considering using the coordination procedures 
employed at the Nevada Test and Training Range. Also, with Air Force 
training continuing to increase at Holloman, we are currently 
conducting an analysis to determine if the current airspace is 
adequately configured and sized to support our future range and 
airspace needs.

    Senator Udall. That would be great. Thank you very much. I 
have a couple of others for the record. I appreciate your 
prompt reply to those. Thank you.
    Senator Kirk. Thank you.
    The Senator for King Cove, Alaska.

                              F-35A BASING

    Senator Murkowski. Thank you, Mr. Chairman. I am glad that 
you always remember.
    Gentlemen, ladies, welcome to the committee. Thank you.
    This is a question, first off, for General Green, if I may, 
and this regards the process that the Air Force is in. The 
environmental impact statement (EIS) process has been initiated 
to bed down two squadrons of F-35s there at Eielson Air Force 
Base. The scoping meetings are going to take place next week. 
But the Air Force is proposing a $37 million simulator building 
in the fiscal year 2016 MILCON program to support the bed-down.
    Now we know that a final decision is not going to be made 
until the National Environmental Policy Act (NEPA) process is 
concluded, but assuming that all goes well and Eielson is 
selected to receive the F-35s as currently planned, can you 
speak to how much military construction will actually be 
required to complete the bed-down, and what the anticipated 
pace of construction will be moving forward?
    General Green. Thank you, Senator.
    You are right, as Eielson is the preferred and reasonable 
alternative right now, the NEPA process is underway and the 
request is simply going to align this year and give us the 
ability to get the MILCON project through the budgetary 
process, so it will line up for the first arrival of aircraft, 
if Eielson is selected.
    As far as the timeline for the construction, I do not have 
the complete timeline for all the size of the construction 
program, and I will need to get that to you later on. But how 
we traditionally do this is line up our construction so it is 
just in time for aircraft arrivals. So if there is capacity at 
Eielson to provide some initial standup, we won't do the 
construction until it is necessary based upon the growth of the 
squadron. So I will need to line up the aircraft arrivals in 
the MILCON, and we can take that for the record and get back 
with you with those long-term program details.
    [The information follows:]

    We included $161 million worth of projects in the fiscal year 2016 
to 2020 Future Years Defense Plan (FYDP) for bed-down projects at 
Eielson AFB, Alaska. Construction timelines at Eielson are somewhat 
longer than for projects in more temperate locations. For example, we 
have estimated a three-year construction timeline for the fiscal year 
2016 F-35A Flight Simulator/Alter Squad Ops/AMU Facility project 
allowing the facility to be completed before the first F-35A aircraft 
arrives in July 2019. Based on the projects in the FYDP, overall 
construction timeframes would run into fiscal year 2020.
    The initial site survey that generated the $161 million estimate 
assumed that the F-16 Aggressor Squadron at Eielson would be relocated, 
but recently the Air Force decided to leave this unit at Eielson. This 
will add roughly $123 million of additional military construction 
projects to the F-35A bed-down, as we will not be able to use the 
Aggressor facilities for the F-35A. While these new projects have not 
been programmed, we now expect construction will stretch into fiscal 
year 2021.

    Senator Murkowski. Understood. I appreciate that.
    Now, none of us think that sequestration as it relates to 
our defense spending has had any kind of a positive impact 
there. But if sequestration moves forward, what might that do 
to the construction proposal that we are talking about with the 
F-35s, recognizing that is still in the off-years here?
    General Green. Yes, ma'am. If we have a sequestered budget 
or Budget Control Act levels, we would expect all of our 
strategy across every functional area to be affected, whether 
it is nuclear deterrence operations or bed-down of weapons 
systems. The priorities of that would be up to a conversation, 
a dialogue, we would hope to have with the committees about the 
exact timelines and the risks we would be taking.
    I would expect all of our programs to be touched, the 
impact of which will only be determined by the appropriation 
levels that this committee and Congress is allowed to have. So 
there will be a conversation, and, again, we will look at 
timing and risk and where to balance that risk across the Air 
Force program.

                        18TH AGGRESSOR SQUADRON

    Senator Murkowski. I appreciate that.
    There has been a lot of back and forth about the future of 
the 18th Aggressor Squadron, which operates the F-16s out of 
Eielson. There are three different scenarios that are at play 
right now. One keeps the F-16s there at Eielson. Another moves 
them down south to Joint Base Elmendorf--Richardson (JBER). And 
then a third is to locate them elsewhere, probably Nellis.
    Where is the Air Force on this decisionmaking process right 
now?
    General Green. Right now, currently, the Air Force is going 
through its strategic basing process so, as you know, ma'am, 
that is an open and collaborative process. We are on track for 
the Secretary of the Air Force to make a basing decision later 
on this spring, and so that would allow us to then move 
forward. I would expect a decision for preferred and reasonable 
alternative to be later this spring, and then everything would 
flow from that.

                         ARMY GREY EAGLE BASING

    Senator Murkowski. Okay. One final question and this 
relates to the Grey Eagle unmanned aerial vehicle (UAV). The 
Army has been in discussion with the Air Force for about a year 
about possible basing of the Grey Eagle there at Eielson, which 
the Army regards as its best alternative. I guess the second-
best alternative would be basing it at Fort Wainwright.
    So, General Halverson, when do you need a definitive answer 
from the Air Force about whether or not Army can base the Grey 
Eagle at Eielson?
    General Halverson. Well, ma'am, we have been in 
consultation with the Air Force, like you said.
    Senator Murkowski. Right.
    General Halverson. We have forwarded that to the Secretary 
of the Air Force. And like Tim just said, they are looking at 
that in their basing aspects of it. And it should be brought to 
them I think soon, so, therefore, we will have a decision by 
the summer. That is where we are tracking.
    Senator Murkowski. General Green.
    General Green. Yes, ma'am. We are on track to have a basing 
decision, again, this spring with the Secretary of the Air 
Force, so that is where we are in the basing process.
    Senator Murkowski. I appreciate that. And then further 
information you can get back with me on regarding the F-35s is 
appreciated.
    General Green. Yes, ma'am. We will do that. Thank you.
    Senator Murkowski. Thank you, gentlemen.
    Thank you, Mr. Chairman.
    Senator Kirk. Thank you.
    Let's turn to Senator Cassidy, who wanted to do a moment of 
silence for the 11 troops that were recently lost in a tragic 
accident.
    Senator Cassidy. Yes, several of those coming from 
Louisiana, National Guardsmen, so thank you.
    [Moment of silence.]
    Senator Cassidy. Thank you.
    Senator Kirk. Let's summarize, 11 troops were killed, of 
which 4 were marines and 7 were from the Louisiana National 
Guard?
    Mr. Tester?

                       F.E. WARREN AIR FORCE BASE

    Senator Tester. Thank you, Mr. Chairman. That kind of shows 
the fact that service is real business, so we want to thank you 
guys for the leadership that you provide and thank the troops 
who serve, whatever branch of the military they are in.
    I am going to start with you, General Green. Secretary 
James has said the nuclear mission of the Air Force is top 
priority for the Air Force.
    Could you tell me how this budget reflects her statement?
    General Green. Yes, sir. It really goes to show the budget 
reflects her desire for investment across-the-board. So in the 
military construction accounts, it is about the dollars 
invested in the three projects we have: the weapons storage 
facility at F.E. Warren; the investment in using that as a 
pathfinder, if you will, of the first of five to be constructed 
in the future years as we go through the program; and getting 
this back onto an appropriate path with our infrastructure to 
support it.
    Senator Tester. The weapons storage facility at F.E. 
Warren, when will it be completed?
    General Green. Sir, I don't have the construction timeline 
out in front of me, so as we go through the bids, I would 
expect it to take a couple of years to do that. And then 
following that design and construction, we will begin doing a 
series of other projects beginning in fiscal year 2018. 
Barksdale Air Force Base is the next budget request. And then 
we will go on to Malmstrom Air Force Base in fiscal year 2019 
with a budget request for a weapons storage facility.
    Senator Tester. Is that weapons storage at Barksdale also?
    General Green. Yes, sir, it is.

                   OVERSEAS MILCON AND BURDEN SHARING

    Senator Tester. Okay. All right. Thank you.
    I just want to talk about overseas MILCON and any one of 
you can answer it that wants to or you can all answer it.
    Look, we are dealing with regional and global threats 
across the globe, confronting adversaries on the other side of 
the world with our allies, and I think this is important. But, 
oftentimes, I wonder if we don't disproportionately fund the 
bill and our allies somewhat stay back and say, well, the 
United States is going to put the manpower in, they are going 
to put the money in, so we will just let them do it.
    Look, make no mistake about it, investments have to be made 
to keep the world a safer place, but the U.S. taxpayer cannot 
be put on the line, and the soldiers, the different branches 
you represent, shouldn't be put on the line disproportionately. 
Meanwhile, we put a bunch of money into MILCON projects or 
other defense areas that our allies could invest in education, 
research and development (R&D), reduce taxes, do all sorts of 
other stuff.
    So my question to you, and this is kind of a 30,000-foot 
view, in terms of the overseas MILCON, does this budget 
exacerbate our allies' overreliance on the United States 
military to provide for their security? And why or why not?
    Lieutenant General Halverson.
    General Halverson. Sir, I will tell you, this budget 
ensures that our allies are a cooperative partner with our 
military construction. The main one that we are asking for from 
a housing perspective is in Korea in the Daegu area, which is 
really tied to the provide the quality of life, to allow us to 
get off a lot of expensive leases and stuff we have that has 
been programmed for things.
    It has been really important as we work, as you know, sir. 
Our regional alignment and what we are doing in the Army is 
twofold. One, in 2005 base realignment and closure (BRAC), we 
brought a lot of capability back to the United States and we 
built that up, and now we are rotating forces there like we 
have in Korea with the brigade that then goes into Humphreys 
and then goes up to be the deterrent force.
    The Koreans have been working with us a lot. Of the $10.9 
billion, they have contributed a lot to that $10.9 billion that 
we built down in Humphreys.
    So collaboratively, we work very closely with all players 
to ensure that we do provide that capability that we do need. 
So our coalition partners are providing those places, like 
Japan and Korea, that really shows they have a stake in this 
readiness aspect and the deterrent capability.
    Senator Tester. Thank you for that answer. I would assume 
that depending on which ally you are talking about, it probably 
depends on how much they are contributing.
    Overall, just overall, what kind of contribution do you see 
from our allies, whether it is a housing project, whether it is 
a runway project, whatever it would be? Would it be 1:1, every 
$1 we put in, they put in a buck? Or would it be for every $10 
we put in, they put in a buck? What would it be?
    General Halverson. Sir, I do not have those numbers on 
those things. I can tell you in Japan and stuff, there are very 
shared things for us running bases in Japan, where they pay the 
majority of a lot of the workforce and some of the sustainment 
aspects that we do have in Japan. So Japan has been doing 
almost 1:1, if not more, from that capability, from that 
partner.
    Senator Tester. That is good.
    Thank you, Mr. Chairman. I will stick around for a second 
round.
    Senator Kirk. Mr. Cassidy.
    Senator Cassidy. General Halverson, which partner does the 
poorest job of cost-sharing with us? I am just curious. You 
mentioned Japan is 1:1 or maybe a little bit above, and I like 
that line of questioning.
    Which partner does the worst?
    General Halverson. I would have to take that. I do not have 
the particulars of that, sir. But we do work very closely. A 
lot of it is in the Status of Forces Agreements (SOFA) that we 
work, and that is what is really important as we work that out 
from an intergovernmental perspective.

                          FORT POLK, LOUISIANA

    Senator Cassidy. You make a nice presentation in your 
testimony regarding the need to be very sharp, in terms of 
getting the biggest bang for buck from our MILCON dollar. Let 
me just thank you, by the way, again, for meeting the other 
day.
    And let me also put a plug in. If Fort Polk is the one 
place where you are actually adding footprint, it does seem 
like the best use for the base is to continue to expand its 
capability, because, again, you make the case that it has to be 
strictly a kind of ``does it work or not'' sort of thing, so I 
will just put that plug in.
    Obviously, you are familiar with the Joint Operations 
Center (JOC) and the issues regarding building that.
    General Halverson. Yes, Senator. I will tell you, as you 
all know, Fort Polk is a remarkable post. The bottom line is it 
one of the two places--we have Fort Irwin with our National 
Training Center and then we have Fort Polk with our Joint 
Readiness Training Center. It is a huge training environment 
that we need to be able to shape the conditions for our brigade 
combat teams and all our soldiers to be able to create that 
environment where, therefore, they can ensure that no soldier 
goes into harm's way untrained.
    We do appreciate the people of Louisiana working with us, 
so we have had a capability to get land and stuff, so, 
therefore, it creates a better environment for us to train. 
Working together, like you said, with our communities, with the 
State, really does provide us those capabilities.
    So, therefore, as we have more time, we can train on large-
scale, decisive operation type things, which are very complex. 
And that is what we are seeing at our Joint Readiness Training 
Centers and our National Training Centers, which are vital to 
us and our training opportunities.
    Senator Cassidy. Clearly, I have a stake in this, but it 
seems like you made a great case for going ahead and building 
the JOC on Fort Polk, because it does seem as if that will most 
efficiently use your resources, bringing the training facility 
to where the troops are stationed.
    Obviously, those folks, some of whom are selling their 
home, their second home--they have previously sold a home that 
had been condemned. They are selling a second home. So there 
has been a tremendous commitment to our country by those who 
live close by.
    General Halverson. Well, sir, I tell you, as you look at 
our fiscal year 2016 military construction, that is why we have 
invested in some mission command capability, which are our 
operations and command and control facilities. You have seen 
one in the cyber that we have asked for, and obviously the one 
that we are committing at Army north (ARNORTH) operation 
center.
    So those are the commitment because mission command is a 
vital capability that we need for now and into 2025, so it is 
something that is a huge capability that we do need.

                  BARKSDALE AIR FORCE BASE, LOUISIANA

    Senator Cassidy. General Green, can you elaborate on your 
nuclear weapons upgrade at Barksdale and timeline and all that? 
You mentioned that before.
    General Green. Yes, Senator. The timeline for Barksdale is 
a project to begin in 2018. So in 2 years, you would see a 
request, and that is outlined in the Future Years Defense Plan 
(FYDP) that you have available.
    We would like to take the lessons that we have learned in 
the design of the F.E. Warren project, apply those at 
Barksdale. And then that would be a long-term upgrade, as you 
know, to that infrastructure there.

                        BRAC AND OVERSEAS BASING

    Senator Cassidy. Okay.
    Again, going back, General Halverson, to your testimony 
regarding the BRAC closing, and you mentioned the facilities 
overseas that you have as much as possible gone through and 
shut down facilities with spare space.
    Can you give us an estimate of how many--I don't know this, 
I should--how many installations we have that are outside our 
borders that are under the MILCON supervision? How many square 
foot and how much we spend on their operations and maintenance 
(O&M), et cetera?
    General Halverson. Sir, obviously, like you said, I will 
get the exact number of what is overseas and what is inside the 
Continental United States (CONUS) of America and stuff like 
that. But the challenge we have with our sustainment, 
restoration, and modernization (SRM) and stuff, and the things 
of how we sustain our buildings, is that from excess capacity 
to right now, about 18 percent, which our parametric gives us 
about 160 million square foot. And that costs us about $480 
million a year that we are doing to sustain excess----
    Senator Cassidy. That is both overseas and domestically?
    General Halverson. That is holistically within our Army. 
One of the things, as you said, is overseas and that is why 
when we did our European Infrastructure Consolidation here this 
last year, it looked at this ability of how we look at BRAC, 
which is really looking at how we would facilitate maintaining 
capability. What is best military value? But reducing 
footprints----
    Senator Cassidy. Can you, maybe for the record, but give me 
a sense of how many facilities we do have overseas and how much 
we are spending on that O&M?
    General Halverson. I will have to get that back with you, 
exactly the number of facilities and what that costs.
    [The information follows:]

    There are 27 Army installations outside of the U.S. border, 
consisting of a total of 151 million square feet, with a total 
Operation and Maintenance SRM cost, in fiscal year 2014, of $712 
million to maintain them.

    Senator Cassidy. I yield back. Thank you.
    Senator Kirk. Mr. Schatz.
    Senator Schatz. Thank you, Mr. Chairman.

                     MARINE CORPS GUAM REALIGNMENT

    Mr. Clifton, I want to discuss the realignment of marines 
from Guam, and I recognize that this is a key part of our Asia-
Pacific rebalance. But I am getting increasingly worried about 
the cost.
    I know that the initial estimate ranged from $10 billion to 
$18 billion. The Government Accountability Office (GAO) warned 
that the cost could be as high as $27 billion. And I know the 
Marine Corps is looking at reworking and rescoping the 
proposal.
    But I think the cost is still high in some areas, and I 
want to drill down into the various cost drivers. It seems to 
me that one of them is that Guam is very far away. It is a 
remote place. It does not necessarily have the workforce there, 
the materials there, so construction costs are going to be 
high. I would like you to speak to that.
    But I also think it is important for this subcommittee and 
for the Marine Corps and the MILCON process to recognize that 
one of the cost drivers is simply that you have to set up 
infrastructure from scratch in order to do the kind of lay-down 
that is being talked about. So whatever paring down of the per 
unit housing cost or the training facilities or whatever else 
it is, you still have a fixed cost that you are going to have 
to distribute among however many marines that are on Guam that 
has to do with the fact that you are doing this on Guam and not 
in a place where the infrastructure is perhaps more well-
developed.
    So if you could talk to the construction costs as a cost 
driver and then the problem of building the infrastructure 
nearly from scratch?
    Mr. Clifton. Yes, sir. The cost in Guam for the relocation 
of marines there is split between the Japanese Government and 
the United States. The Japanese have committed about $3.1 
billion, a similar amount for the United States.
    Some of the facilities are being improved. Family housing, 
for example, at Andersen Air Force Base is currently under 
discussion among all the services to take the existing housing, 
augment it for the 500 or so houses that are required by the 
Marines, and upgrade across-the-board.
    For the training range that is in this budget, that is a 
new facility. It is $126 million for----
    Senator Schatz. Right, but just to be precise about my 
question, how much of the cost, and the GAO is raising the 
alarm about the potential total cost, has to do with the fact 
that it is more expensive to do construction on Guam? And then 
how much of that has to do with the fact that you are starting 
from scratch?
    I think we just need to make choices when it comes to 
resources that recognize where the cost drivers are. And if you 
are saying it is roughly $3 billion from the Japanese 
Government committed--not in, but committed--and then roughly 
$3 billion from our Government, that does not cover the whole 
cost of the lay-down.
    Mr. Clifton. For the marines, no, sir. It sounds like that 
is a good question for me to get the details and provide you 
back for the record. But I think your assumptions are correct, 
that it is more costly in Guam than perhaps in North Carolina 
or California even.
    Senator Schatz. Or Hawaii?
    Mr. Clifton. Or Hawaii.
    So part of what is going on, and it makes those answers a 
little uncertain at this time, is it is far into the future, 
and part of the effort and focus of effort right now is to try 
to make those costs the most economical possible.

               MARINE CORPS AMPHIBIOUS LIFT REQUIREMENTS

    Senator Schatz. I had a conversation with General Dunford 
on the question of lift, and I understand it is not the MILCON 
subcommittee's jurisdiction to talk about lift. But I would 
like you to answer the following question. When I asked him if 
there was sufficient lift capability in the region to support 
the potential lay-down, he was pretty crisp. He said no. So if 
we were to provide that lift, would that drive up the MILCON 
projected costs?
    Mr. Clifton. For the Marine Corps, if additional amphibious 
lift was provided, it should not drive up the cost.
    Senator Schatz. Okay. Thank you.
    Mr. Clifton. But that is something I would need to clarify. 
As you spoke correctly, that is not my main swim lane for this 
testimony.
    Senator Schatz. Okay. Thank you.

                                USARPAC

    General Halverson, I wanted to talk to you about the U.S. 
Army Pacific (USARPAC) headquarters. I know it took an $11 
million cut in the last appropriations process, and I know you 
know how critical it is to the U.S. Army Pacific.
    If you could talk about how important that headquarters is 
with respect to the Asia-Pacific pivot when it comes to the 
Army?
    General Halverson. Thanks, Senator. I was stationed in the 
25th during my major days, and I was very fortunate, although I 
am not sure ``fortunate'' was the word, but when I got selected 
to be the special assistant to the USARPAC commander, who was 
General Ord. When I go visit General Brooks, I am in the same 
headquarters I was when I was a major.
    His scope of responsibility, obviously, has grown, 
especially because one of the lessons we have learned from war 
has been you need fusion points. You do not need stovepipes. 
You need to be able to facilitate a headquarters that becomes 
your mission command.
    As you know, because of the $11 million cut from last year, 
we are rescoping this year to be able to ensure that we are on 
glide path and then to be able to get this project. It is an 
iterative project.
    We appreciate the subcommittee's support on this project, 
because this is vital for General Brooks and the Army's focus 
in the Pacific. So I really do appreciate the subcommittee's 
support as we move forward, because this will be a mission-
essential capability that we need for the USARPAC.
    Senator Schatz. Thank you.
    I have exceeded my time, but I just wanted to say for the 
committee members, I have never seen a headquarters for a four-
star that looks quite like the place on Palm Circle, so I want 
to be supportive as we get this thing done.
    Senator Kirk. Ms. Collins.

          PORTSMOUTH NAVAL SHIPYARD CONSTRUCTION REQUIREMENTS

    Senator Collins. Thank you very much, Mr. Chairman.
    Ms. Kern, at the request of the Navy, Congress authorized 
and approved funding for a project at the Portsmouth Naval 
Shipyard in Maine that consolidates structural shops. It is 
known as P-266.
    The project aims to make submarines operationally available 
sooner to the fleet than otherwise would be the case were this 
project not completed. It is basically adopting a lot of lean 
manufacturing principles and is going to allow the shipyard to 
be even more efficient. In the end, I am sure it will not only 
return submarines to the fleet sooner but it will save money.
    Because of the backlog in ship depot maintenance that 
Admiral Greenert has described due to sequestration, it is even 
more important that we move submarines through the yard as 
quickly as possible so that we can help return the Navy's fleet 
to its proper state of readiness.
    Right now, there is an $18 million reprogramming request to 
address some of the unanticipated costs associated with this 
project, and that is currently under review at the Office of 
the Chief of Naval Operations (OPNAV).
    Could you tell us when we could expect a final decision on 
this request?
    Ms. Kern. Senator Collins, thank you for your question, and 
thank you for your support of Portsmouth Naval Shipyard, which, 
like all of our naval shipyards, is critical to maintaining our 
warfighting readiness.
    The reprogramming that you are asking about, P-266, is a 
fiscal year 2014 project and it actually requires an additional 
$20 million to execute it. We are preparing a reprogramming 
package, which I actually endorsed yesterday, and so it has to 
make its way through the Navy channels and then on to the 
Office of the Secretary of Defense (OSD) before you will see it 
here in Congress.
    Based on typical timeframes, I would imagine you would see 
it by early May, so you will see it soon. And provided that we 
have your support, we can get this project awarded in this 
fiscal year.
    Senator Collins. Great. Thank you very much for your 
personal help on that.
    I met just yesterday with the head of Naval Reactors, 
Admiral Richardson, and we were discussing the number of days 
per submarine that would be saved by moving forward with this 
project. He was very familiar with it, and his words are the 
efficiencies would be huge if we moved forward. So I am very 
pleased to hear this update and know that you understand that 
any way that we can improve the efficiency and effectiveness of 
our Navy's four public shipyards, we should really seize those 
opportunities.

        BANGOR INTERNATIONAL AIRPORT FIRE/CRASH RESERVE STATION

    General Green, many Air National Guard units share facility 
space with their civilian counterparts, and that is, certainly, 
true in Bangor, Maine, where the 101st Air National Guard Wing 
has a very important refueling mission.
    The Air Force National Guard's proposed budget includes 
$7.2 million to refurbish and increase the space for the Guard 
wing's fire and rescue facility for equipment, storage, and 
training in Bangor.
    As part of the wing's joint use agreement with Bangor 
International Airport, the base provides all the fire and 
rescue capability for the airport. The airport is giving the 
base the opportunity for shared use of the runway, which is 
extremely lengthy, because it is a former Air Force base, and 
very well-positioned from a strategic location.
    I want to thank you and General Welsh, who recently visited 
the airbase, for including this project in this year's budget. 
And I would like to offer you the opportunity to make any 
comments you wish on the value to the Air Force of these dual-
use bases where we can share expenses with the local community.
    General Green. Thank you, Senator.
    Dual-use facilities are exactly where we are moving in the 
future as we go to things. We are trying to make sure we 
partner across-the-board with our communities so that all of us 
leverage all of our real property and our assets, and this is a 
great example up at Bangor.
    We are excited to have the opportunity to right size the 
fire station and rescue station, as you noted. They have 
outgrown their capacity. They are literally bursting at the 
seams so we can meet our mission and the local community's 
mission.
    Again, I think it represents the kind of right investment 
that we need to be making in the future as we move forward.
    Senator Collins. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Kirk. Thank you.
    The Senator for all of Milford, Connecticut.
    Senator Murphy. Thank you very much, Mr. Chairman.

                   NEW LONDON NAVAL BASE INVESTMENTS

    Thank you all for being here. I want to come back to 
submarines, where Senator Collins began, and direct a question 
to you, Ms. Kern.
    The increasingly aggressive forward deployment of the 
Russian sub fleet has gotten a lot of attention over the course 
of the last few years. We know of at least one instance in 
which we had a Russian submarine 200 miles off the east coast, 
and it speaks to the continued importance of our only submarine 
base in the northeast, which is in New London. And I appreciate 
the Navy's commitment to keeping this a sustainable operation.
    But as you know, the State of Connecticut has made a pretty 
unprecedented commitment to that base as well, $40 million has 
gone out of State coffers to continue to make investments 
there. And the most recent amongst these projects is a major 
smart energy electricity grid that is going to use Federal, 
State, and private sector funding in order to do some major 
upgrades in and around the base.
    I am proud of what we are doing in Connecticut, but I am, 
frankly, interested as to whether our partnership is looked 
upon as a model for how operations and improvements may be made 
other places. We have made a substantial commitment in New 
London. We are committed to continuing that commitment.
    But this, certainly, is a way in which we can potentially 
save some money in other areas of the budget. I just would love 
to know if this is, at least on the Navy's side, a model that 
is worth looking into in other places.
    Ms. Kern. Senator, thank you for your question. That is 
actually a fascinating area, and I can get back to you on the 
specifics. But I know that we are looking at partnerships with 
several local communities across the United States for exactly 
that type of thing. We have various renewable and smart energy 
projects that are ongoing, and I would be happy to look into 
the specifics that are happening in the Connecticut area and 
get back to you on that, sir.
    [The information follows:]

    Partnering with local governments and industry to solve energy 
problems is very much a model that the Navy is leveraging across all of 
our bases. In Connecticut, the Navy has funded a design analysis and a 
grid integration analysis to construct a microgrid capable of providing 
reliable power to critical infrastructure during a commercial power 
outage. The microgrid will be designed to be expandable in the future, 
and it will have the capability to accept additional sources of 
electrical power such as fuel cells, diesel generators, and renewable 
energy. This effort is made possible through our partnership with the 
Connecticut Office of Military Affairs and with funding assistance from 
local government. With respect to renewable energy projects, the Navy 
is looking into a proposed project from one of our Public Private 
Venture housing partners to install 4-6 MW of solar generation on 
vacant housing land.

    Senator Murphy. Thank you very much.

                         EUROPEAN INSTALLATIONS

    Let me turn overseas for a moment and ask a question of 
both General Halverson and General Green.
    We have, since the end of the cold war, trimmed about 75 
percent of personnel out of Europe. About 80 percent of our 
infrastructure is gone. And in January, the Department of 
Defense (DOD) just announced that we are going to be returning 
15 additional sites across Europe to their host nations, and 
this is going to save the budget about $500 million annually.
    This is all happening at the same time that we are making a 
rather sizeable new commitment to security along Russia's 
western edge, our partners in Eastern Europe.
    Have our plans regarding transfer of infrastructure to our 
European allies changed? Has any of our budgeting when it comes 
to facilities in Europe changed in light of what is happening 
today on the ground in Ukraine and in light of some of the 
major new commitments that we have made to European and Eastern 
European security?
    General Halverson. Senator, I will take for Tim first, and 
then he can follow on, if he has anything to add.
    I will tell you, it is very important, because like we said 
with the European Infrastructure Consolidation that we looked 
at those things, we really looked at this comprehensive 
infrastructure to ensure that we look at ourselves, so we would 
still have emphasis on military value, we would still have 
emphasis on capability that we would need, and we would still 
have emphasis on how we would fill our obligations with our 
allies and stuff like that.
    So what we saved, and what you are hearing about the 
savings you hear about, the 33 recommendations that are from 
the Army, we could be saving up to $168 million. So therefore, 
from a capacity perspective, if we have to do those, we still 
have a rotational brigade like we have, as you have heard, that 
we are in Poland, Estonia, and all those places, that we are 
there with a regional capability. And that is why you will see 
in the fiscal year 2016, we have asked for the maintenance 
facility to be Grafenwoehr, so therefore, we don't have to do 
second destination costs. We can sit there and rotate forces in 
there and sustain that equipment while it is in Europe, and 
therefore, we could have a much quicker capability and sustain 
those costs right there.
    That is how we are looking at ourselves. Obviously, it is a 
concern to us, because of the things like we have seen with 
Russia and its overt capabilities. So we are looking at it very 
closely and working with United States Europe and seeing what 
they have to do.
    But it really was the long-term plan that the U.S. European 
Command (EUCOM) had to bring through, and that is what we tried 
to do as we looked at those efficiencies internal.
    Senator Murphy. Anything to add, General Green?
    General Green. Just for the Air Force, it is the same 
thing. The capacity, as we looked, the capacity evaluations we 
consolidated capability, or we moved capability from one 
location to another to make it closer to the fight. As we went 
through the consolidation, the European Infrastructure 
Consolidation, it looked at existing plans. And so there is 
still the existing capacity to support the operations that we 
need to have. So that did not go away.
    And as we look at the European Reassurance Initiative, as 
we go through that process, those are some smaller projects. 
But we have the capacity to do what we need as a Nation in 
Europe.
    Senator Murphy. I understand the difference between 
maintaining operational capacity and having infrastructure, but 
these are countries that are clamoring for a very visible U.S. 
presence. It is the best way that we can send a message that we 
still stand behind article 5, and so I will continue to discuss 
this topic with you moving forward. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Kirk. Dr. Boozman.
    Senator Boozman. Thank you, Mr. Chairman.
    And thank all of you all for being here. We very much 
appreciate your service to our country.
    I would just like to get your views again, and I know you 
are probably getting tired of talking about it, but it is so 
important.
    We are in the budget cycle right now, and the House has 
come out with its budget. We will be marking up our budget, I 
believe on Thursday.

                         SEQUESTRATION IMPACTS

    Tell me, if we could just go through and talk about your 
concerns with sequestration.
    General Halverson. Senator, I will lead. Very concerned. 
Gravely concerned. We already have in the budget we submitted 
in fiscal year 2016 is just the minimum requirements we have. 
With sequestration, like I said, it is an additional $2 billion 
that we would have to phase. So, therefore, when you hear about 
our backorders of the $3 billion backorders and stuff, now you 
will just exasperate that.
    I had to submit a budget here that I can only afford 80 
percent of my SRM dollars. Now it will be much lower. So, 
therefore, the concern you have or we have is with total 
readiness, that readiness to our soldier and the trust when 
they see these degradations of their capability. And they will 
not have the money. The ranges won't be quite well because we 
won't have the people to facilitate those.
    Those are the concerns that we have that go to 
sequestration, because it will put us at a grave concern.
    Senator Boozman. So it translates to things like deferred 
maintenance?
    General Halverson. Yes, sir.
    Senator Boozman. Thank you very much.
    Ms. Kern.
    Ms. Kern. Senator, thank you for your question. I mentioned 
in my opening statement, as General Halverson pointed out, that 
the fiscal year 2016 budget request represents the absolute 
minimum that we need in order to support the Nation's defense 
strategy. A return to sequestration in 2016 would cause us to 
revisit and revise the entire strategy globally.
    While I can't talk about the specific impacts of 
sequestration, because it would be pure conjecture, I can tell 
you some concerns I have specific to MILCON based on how 
sequestration affected our MILCON program in 2013.
    In 2013, each MILCON project was reduced by 7 percent. And 
with your support, we were able to reprogram MILCON dollars we 
had saved over several years due to a favorable bidding 
climate. However, we are starting to notice the bidding climate 
is trending less favorably. So therefore, I can't be certain 
that we will have the same flexibility to fill gaps in MILCON 
projects if sequestration in 2016 is applied in the same way.
    In that case, we would either have to de-scope or cancel 
projects, so that would be my main concern with MILCON.
    Senator Boozman. Very good.
    Yes, sir?
    Mr. Clifton. Thank you, sir. General Dunford has already 
testified that sequestration will cause great harm to the 
security of our country. It greatly reduces the budget, 
obviously, and we are already at a minimum, as Ms. Kern pointed 
out. But sequestration also is an extremely inefficient way to 
allocate cuts. And for the reasons Ms. Kern mentioned for 
MILCON, the same effect would be on the Marine Corps.
    It would preclude the Marine Corps from meeting 
requirements of the Defense Strategic Guidance and, more 
importantly, the requirements of the geographic combatant 
commanders. So there are significant impacts of sequestration 
in particularly the application of those cuts.
    Thank you, sir.
    Senator Boozman. Thank you.
    General.
    General Green. Yes, Senator. Thank you.
    General Welsh and Secretary James have both testified that 
their concern with the sequestered budget levels or the BCA 
levels are our ability as an Air Force to meet the National 
Defense Strategy. Our MILCON budget reflects the same thing as 
we go along the way. The MILCON follows the strategy. And so 
when you see a shift to the Asia-Pacific, we have investments 
in the Pacific. And when we are concerned about nuclear defense 
infrastructure, we have investments.
    A sequestered budget or BCA budget is going to have us go 
back, with your support, you have gotten the budget request, 
there are going to be very difficult decisions across all those 
portfolios. We simply won't be able to do all of the work that 
needs to be done in the years ahead, and all the easy decisions 
have been made.
    So it is going to be a challenge for us. And, again, it is 
about having a strategy and being able to execute it. It falls 
into MILCON. It falls into FSRM. And so when we look at our 
facility sustainment, restoration, and modernization accounts, 
we will be having to make decisions about maintaining current 
facilities and trying to keep them whole, versus repairing them 
and upgrading them and, oh by the way, these projects that need 
MILCON, they are not going to get the MILCON so that 
maintenance money is going to be continued to be invested in 
facilities that we should be eliminating over time.
    So it is a compounding problem that increases year to year, 
because of the compounding nature of it.
    Senator Boozman. Thank you.
    And thank you, Mr. Chairman.
    Senator Kirk. Mr. Tester.
    Senator Tester. Thank you, Mr. Chairman.
    I would like to echo the statement that Ms. Kern said about 
the bidding climate. I think it has changed a lot in the last 
couple of years, and I think your ability to reprogram money, I 
think you are spot on. I just don't think it is going to be 
there.

                     ARMY NATIONAL GUARD FACILITIES

    But my question is for you, General Halverson, and it deals 
with Army National Guard facilities. It is my understanding 
over the last 4 years, the funding for military construction in 
the Army National Guard has fallen by 85 percent. And it may be 
true in the Air Guard facilities, too. I am not sure about 
that. But I do know this.
    It is also my understanding that the average age of our 
armories is about 43 years old, which if you are 58, 43 is not 
bad. But the truth is the adjutant generals (TAGs) have said 
that they are about 42 percent short of space. That is a 
problem.
    Just like everybody else on this subcommittee, I have a 
spot where they need a new armory, down in Butte.
    So my question is, to what extent are the National Guard 
Bureaus, TAGs, and Governors all a part of the budget 
conversations that you put forth to us?
    General Halverson. Sir, I appreciate that. It is very 
transparent to our process that we do, because we have the one 
published facility investment strategy. And to that, we work 
very closely with General Lyons, General Grass, to ensure that 
we do hear their requirements.
    The issue like you are saying is that we speak at all their 
forums and stuff to make sure that their word is heard. I do 
agree totally with you, that the issue that we really have to 
look at from their perspective is that their structures are 
failing. And we need to look clearly at their ability to 
sustain that, so they can consolidate.
    That is one of the issues we heard, and that is why you 
will see within their military construction this year, we are 
actually investing in mission command-type capability and 
readiness centers for their particular needs.
    Senator Tester. So what you are saying is the TAGs, the 
Guard Bureau, and the Governors all have an opportunity to put 
their two bits in on this budget?
    General Halverson. All their requirements, we look at their 
requirements. We vet their requirements. And, therefore, that 
is where you get the $197 million.
    Senator Tester. Okay. One of the challenges, my 
understanding is, the States have is they have to have the land 
in hand, so to speak, before they get on the Future Years 
Defense Plan. In other words, they have to own the land. They 
have to buy it up. They have to hold it. And then you guys can 
put it in the cycle.
    There are, understandably, few States willing to do that. 
Is this still something that needs to be done? Is this 
something you have heard much feedback on from Governors, for 
example?
    General Halverson. I have not heard much feedback from 
Governors, sir, but when I do meet with them, I will ask those 
questions.
    Senator Tester. That is fine. I don't want to bring up 
something and rouse a hornet's nest that we don't need to 
either. But it would seem to me it is pretty difficult, 
especially when many States are running a deficit.

                         ASIA-PACIFIC REBALANCE

    This next question goes to Ms. Kern and Mr. Clifton. The 
Navy and Marine Corps are playing a central role in our pivot--
Senator Schatz talked about this--in the Pacific. Additional 
investments are going to be needed anywhere from California to 
Singapore, Guam, Australia, Japan, Hawaii.
    However, the full cost of the MILCON association with the 
pivot is yet to be determined and far from clear. So my 
question is, what is the estimate for the Navy and the Marines 
associated with our pivot to Asia, short-term and long-term? 
Whoever wants to start can.
    Ms. Kern. I will start, sir. Thank you.
    We revisit our MILCON requirements based on our global 
requirements on an annual basis. We have a strategic lay-down 
and dispersal process that gives us the ability to assess our 
global force lay-down and ensure that our infrastructure will 
support it.
    Senator Tester. Yes.
    Ms. Kern. Like I said, we conduct this process annually, 
and it can result in MILCON project requirements.
    For example, in President's budget 2016, we have a project 
request that will expand our Child Development Center (CDC) in 
Yokosuka. The CDC will accommodate the increase independence we 
expect as a result of forward deploying two additional 
destroyers in support of our presence there.
    In terms of the total overall bill with respect to what 
force structure we are going to have in the Pacific, it is a 
little too early to tell. But, like I said, we revisit these 
requirements annually.
    Senator Tester. Okay. Before I get to you, Mr. Clifton, 
look, I want to work with you guys, I do. But I never heard any 
answer to the question. I heard what you were doing 
specifically, okay. And look, I am a friend, not an enemy.
    I really think it is really important, especially when we 
are talking about sequestration, that you know the figures, 
that at least you can come in and say, ``You know what? Over 
the next 4 to 5 years this is going to cost,'' or, ``Over the 
next 3 years, this is going to cost X number of dollars. Over 
the next 5, it is going to cost X,'' or however you guys do it.
    If you don't, it makes me think that maybe, even though you 
do this strategic lay-down review annually, it makes me think 
that you are really not doing what you need to do if you don't 
know. I do not mean to preach to you, but do you want to talk 
about that?
    Ms. Kern. Yes, sir. I would be happy to follow up with you 
on the specifics.
    Senator Tester. That would be good.
    Ms. Kern. We do have a plan for the FYDP, but I just do not 
want you to think we have a plan and then we never look at it 
again. We do revisit it every year.
    Senator Tester. I think you need to look at it, but I also 
think it needs to be guidelines that you live by. And if you 
are expending more money than that plan, you need to probably 
talk to us about it. And if you are not spending as much, we 
need to give you a pat on the back and say thanks for looking 
out for the taxpayer dollars.
    Mr. Clifton, would you like to answer that question?
    Mr. Clifton. Yes, sir. In fiscal year 2014 and 2015, the 
Marine Corps invested about $500 million in MILCON. In 2016, we 
are asking for $255 million additional. In the future years, we 
are looking at $1.2 billion in MILCON for the Pacific, not 
including family housing, which, as I mentioned earlier, is 
still dynamic because we are trying to cut the cost down there.
    Senator Tester. Got it.
    So the numbers with quick math in my head, this overall 
thing is going to cost about $2 billion for the Marines?
    Mr. Clifton. In the construction, yes, sir.
    Senator Tester. Okay. Thank you very, very much.
    Mr. Clifton. And just----
    Senator Tester. Go ahead.
    Mr. Clifton. I was only going to say that, again, we 
mentioned what good allies the Japanese have been in this, and 
they are putting in about $10.2 billion in the kitty for this, 
about $12 billion, excuse me--$8 billion for consolidation in 
Okinawa, about $4 billion to $5 billion for the Futenma 
replacement facility in Camp Schwab, and about $3.1 billion in 
Guam.
    Senator Tester. Okay. That is good on them.
    I do think that Senator Cassidy's question about who is 
contributing what helps, too. So thank you.
    And thank you all for your service. Thank you for being 
here. I appreciate the jobs you guys do.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Kirk. Is it okay if we make that it? I will advise 
everybody that the record will remain open until the close of 
business on Friday. Members may submit additional questions, if 
they would like.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
      Questions Submitted to Lieutenant General David D. Halverson
                Questions Submitted by Senator Mark Kirk
                             sequestration
    Question. The President's fiscal year 2016 request is $74 billion 
above the BCA cap in total. Clearly some difficult choices need to be 
made about the Defense budget and the MILCON program, which represents 
a 29 percent increase over last year's historically low MILCON request.
    Where are the services taking risk in this budget request? How 
manageable are the risks over the long term?
    Answer. The Army is continuing to take risk to maintain, restore, 
and modernize its facilities and infrastructure across the spectrum of 
the Army's facility management portfolio. The Army manages this risk by 
ensuring the highest priority MILCON projects are requested in the 
budget within funding constraints. Deferring sustainment, 
modernization, restoration, and MILCON requirements will result in a 
more rapid decline of facility life-spans.
    While fiscal year 2016 limitations present challenges across all 
Army installations, further budget reductions would substantially 
increase risks to soldier readiness and wellbeing. Over the long term, 
the cost to restore or modernize facilities increases significantly as 
the Army continues to take risks in facility investments in order to 
mitigate the impact to its readiness from the reduced budgets of recent 
years.

    Question. How much risk have you already taken in your 
infrastructure portfolio?
    Answer. We continue to take risk in our infrastructure portfolio to 
maintain, restore, or modernize our facilities and infrastructure 
during this period of reduced funding levels. Approximately 69 percent 
of Army facilities are in good condition. About 24 percent of Army 
facilities are rated fair or poor, and approximately 7 percent of 
facilities are rated as failing. Our risk mitigation and facility 
investment efforts resulted in a majority of our facilities being rated 
at the highest quality by 2014. However, further budget reductions 
would increase the number of substandard facilities and substantially 
increase risks to soldier readiness and wellbeing. Consistent, 
predictable funding would help the Army further mitigate risks to its 
infrastructure and installation readiness.

    Question. What would the consequences of sequestration be for your 
fiscal year 2016 MILCON programs?
    Answer. The consequences of sequestration on the Army's fiscal year 
2016 MILCON programs would create critical delays in fulfilling 
operational requirements and would continue to cascade facility needs 
into the future. Sequestration would increase the risks in facility 
investments in order to mitigate the impact to unit readiness from the 
reduced budgets of recent years.
    This creates a backlog of construction projects required to replace 
poor and failing facilities. Further prolonged under-investment will 
cause accelerated degradation of the facilities that will ultimately 
result in increased requirements for replacement facilities through 
military construction. We are already operating out of many inadequate 
facilities across the Army and owe our soldiers and families adequate 
facilities in which to train, operate and live.
                          facility conditions
    Question. The O&M money allocated for facilities sustainment has 
declined over the last few years, and the Services can only fund 90 
percent or 80 percent or even 70 percent in some cases. These decisions 
may require additional MILCON in the future to replace neglected 
facilities.
    In general, what are the conditions of your facilities? What 
percentage are failing? What percentage near failure?
    Answer. In general, 69 percent of Army facilities are in good 
condition, and 12 percent are in fair condition. Approximately 12 
percent of Army facilities are rated poor, equating to near failure, 
and approximately 7 percent of facilities are rated as failing.
                                 ______
                                 
           Questions Submitted by Senator Barbara A. Mikulski
    Question. The gap between the 6,000 people that the Army recognizes 
at Ft. Meade and the reality of the 50,000 people who actually work 
there is substantial and greatly contributes to the deterioration and 
substandard maintenance funding for the installation. When are you 
going to recognize what the real life situation is and fund Ft. Mead 
for the 50,000 people who actually work there?
    Answer. The Army's official database of record for Installation 
population does recognize the Fort Meade workforce of 51,158 personnel, 
including over 40,000 military service members and government 
civilians. Within those numbers are over 100 Federal agencies and 
units, many of which are reimbursable to the Garrison for their 
facilities and services. In keeping with the Army's facilities 
sustainment, restoration and modernization practices applied across all 
its installations, these workforce figures are indeed being applied in 
determining Fort Meade facility funding requirements.

    Question. How do you expect to attract the most talented people in 
the Nation to work on Ft. Meade if the buildings are so old they stifle 
the mission? Don't you think it is important for the Army and the 
Nation to have that talent working on future solutions for our forces? 
But they probably don't want to work in labs that can fall apart!
    Answer. The Army agrees it is important to the Nation that we have 
the most talented workforce working on the future solutions for our 
forces. The Army is committed to providing quality facilities 
commensurate with the quality and talent of our servicemembers and 
civilian workforce. Of the facilities rated on Fort Meade, just over 7 
percent are in failing condition, which is comparable to the Army 
average for Q4-rated facilities. By focusing our limited resources on 
our highest priority infrastructure, the Army, through its facility 
investment strategy, is continuing to take risk to ensure funding for 
unit readiness meets national security missions.

    Question. I have been to Ft. Meade and talked to the Garrison 
Commander about his priorities for the installation but yet, when the 
budget comes out, the projects that are funded don't match the need. 
Where is the breakdown in this process and what are you going to do to 
make sure that funding is synchronized with what people need at Ft. 
Meade?
    Answer. The low funding levels during the recent years have 
significantly impacted the Army's ability to fund sustainment, 
restoration, modernization, and construction across all Installations. 
The Army is continuing to take risk in this area to ensure funding for 
unit readiness to meet national security missions. The Army has 
synchronized facility requirements for all Installations by following 
the Army Facility Investment Strategy, that for the Army's highest 
priorities, evaluates how to meet mission and facility needs.
    Senior Commanders of Army Installations submit projects and the 
Army evaluates, prioritizes and funds the highest priority projects 
within the funding available in the military construction and 
restoration and modernization programs. The Facility Investment 
Strategy is the synchronization tool the Army uses, at the current 
levels of funding, to ensure that the highest priority needs of the 
Army can be met balanced with unit readiness.
                                 ______
                                 
              Questions Submitted by Senator Tammy Baldwin
                               fort mccoy
    Question. As a Total Force Training Center, Wisconsin's Fort McCoy 
plays a crucial role in the training and mobilization of the U.S. Armed 
Forces, ensuring that our servicemembers are fully prepared to respond 
to any contingency. As such, it is critical that the Army continues to 
invest in Fort McCoy, maintaining the installation's ability to support 
the readiness and quality of life of our soldiers and their families. 
For fiscal year 2015, Congress took a positive step and provided the 
Army Reserve with additional funding for pressing military construction 
projects, including $17.7 million for an ``Access Control Point/Mail/
Freight Center'' at Fort McCoy. This project is important to the safety 
and security of our military personnel, their families and the 
workforce at Fort McCoy.
    Please explain how this project fulfills an Army requirement and 
fits into the Army's facility strategy.
    Answer. This project will provide Fort McCoy with an Access Control 
Point compliant with Department of Defense and Army Antiterrorism and 
Force Protection standards to accommodate commercial deliveries. The 
existing Mail and Freight Facilities are located in World War II wood 
facilities and are located within the central cantonment area. The 
location of the existing facilities does not permit mail/freight 
screening before materials and vehicles enter the installation 
perimeter. The project will allow the installation to safely receive, 
screen, process, transfer, and ship all mail and freight. The 
integrated material transfer facility will allow for the centralized 
offloading and screening of mail and freight which is not currently 
permitted during heightened threat scenarios when commercial traffic is 
not allowed within the cantonment area.
    This project addresses two of the key tenets from the Army Facility 
Investment Strategy; the elimination of failing World War II wood 
facilities, and building out the most critical facility shortfalls. The 
Facility Investment Strategy provides a comprehensive approach to 
determine the best solution for facilities requirements across the Army 
in priority by the highest need. The Fort McCoy Access Control Point/
Mail/Freight Center project represents one of the high priority needs 
of the Army.

    Question. Please provide the status of this project, including 
whether the funding has been released.
    Answer. The project is fully designed and ready to be advertised. 
The construction funds have been provided to the Corps of Engineers to 
advertise and award the project.

    Question. What is the project schedule, including the expected date 
of completion?
    Answer. The Access Control Point/Mail Freight Center project is 
fully designed and is scheduled to be advertised through Federal 
Business Opportunities website on May 11, 2015. The contract is 
expected to be awarded no later than September 30, 2015. Based on the 
estimated contract duration, the project should be completed by August 
30, 2017.

    Question. It is my understanding that the Army Reserve's current 
Future Years Defense Program (FYDP) for military construction includes 
three projects at Fort McCoy: (1) a Transient Training dining facility 
in fiscal year 2018; (2) an Annual Training (AT)/Mobilization (MOB) 
dining facility in fiscal year 2019; and (3) an Access Control Point 
for West Gate 113 in fiscal year 2020. I appreciate the Army's 
inclusion of these critical projects in the FYDP, but I also recognize 
that the FYDP--while a statement of Army priorities--is subject to 
change.
    For each project, please provide the following: How each project 
addresses Army requirements and fits into the Army's facility strategy; 
A detailed description of each project, including, at a minimum, cost, 
schedule, and contract overview.
    Answer. (1) The Transient Training Dining Facility is programmed in 
fiscal year 2018 for $11 million. If funded in the budget, the 
estimated contract award date is February 2018. The construction start 
date would be April 2018 with a completion date of April 2020. This 
project will provide a new dining facility based on the standard design 
Operational Readiness Training Complex Dining Facility for 1,428 
persons. The construction of this facility will provide the third of 
four large dining facilities necessary to support Fort McCoy's entire 
transient training dining operations required to feed soldiers which 
are mobilizing and participating in annual training exercises. The 
project addresses the Army Facility Investment Strategy tenets of 
efficient space management to Army standards, and eliminate failing 
World War II wood facilities.
    (2) The Annual Training/Mobilization Dining Facility is programmed 
in fiscal year 2019 for $22.5 million. If funded in the budget, the 
estimated contract award date is February 2019. The construction start 
date would be April 2019 with a completion date of April 2021. This 
project will provide the fourth of four required Operational Readiness 
Training Complex Dining Facilities. With the construction of this 2600 
person facility, Fort McCoy's entire transient training population will 
function out of four large facilities. The project addresses the Army 
Facility Investment Strategy tenets of efficient space management to 
Army standards, and eliminate failing World War II wood facilities.
    (3) The Access Control Point West Gate 113 is programmed in fiscal 
year 2020 for $8.8 million. If funded in the budget, the estimated 
contract award date is February 2020. The construction start date would 
be April 2020 with a completion date of April 2022. This project will 
replace a substandard gate with an approved Army standard design access 
control point. Projects that bring Access Control Points up to Army 
standards are high priority requirements and support the Facility 
Investment Strategy.

    Question. In the Army's fiscal year 2015 budget request, the Access 
Control Point for West Gate 113 was scheduled to be funded in fiscal 
year 2019. Please explain why the Army Reserve pushed back the project 
by 1 year.
    Answer. The Army and Army Reserve conducts annual reviews of all 
projects to ensure projects continue to be supported by the Army 
Facility Investment Strategy and represent the most urgent 
requirements. The Fort McCoy, Wisconsin Access Control Point (ACP) for 
West Gate 113 was pushed back a year as a result of the annual review 
of Army Reserve Military Construction requirements coupled with reduced 
funding levels. There were multiple changes in fiscal year 2018, fiscal 
year 2019, and fiscal year 2020 of the fiscal year 2016 budget request 
Future Year Defense Plan.

    Question. Does the Army Reserve plan to change the funding or 
schedule of any of the three currently planned projects at Fort McCoy? 
Please explain.
    Answer. Until the fiscal year 2017-2021 Future Years Defense 
Program development is completed, it is premature to determine if any 
projects, including the Fort McCoy projects, will be affected.
                                 ______
                                 
                  Questions Submitted to Erin M. Kern
                Questions Submitted by Senator Mark Kirk
                             sequestration
    Question. The President's fiscal year 2016 request is $74 billion 
above the BCA cap in total. Clearly some difficult choices need to be 
made about the Defense budget and the MILCON program, which represents 
a 29 percent increase over last year's historically low MILCON request.
    Where are the Services taking risk in this budget request? How 
manageable are the risks over the long term?
    Answer. To ensure the Navy remains a balanced and ready force while 
complying with reduced funding, we were compelled to make difficult 
choices in PB-16, including: slowing cost growth in compensation and 
benefits; deferring some ship modernization; deferring procurement of 
18 of Navy's most advanced aircraft; delaying over 1,000 planned 
weapons procurements; and continuing to reduce funding for base 
facilities sustainment, restoration, and modernization.
    When restoring and modernizing our infrastructure, we intend to 
prioritize life/safety issues and efficiency improvements to existing 
infrastructure and focus on repairing only the most critical components 
of our mission critical facilities. By deferring less critical repairs, 
especially for non-mission-critical facilities, we are allowing certain 
facilities to degrade and causing our overall facilities maintenance 
backlog to increase. We acknowledge this backlog must eventually be 
addressed.

    Question. How much risk have you already taken in your 
infrastructure portfolio?
    Answer. To comply with fiscal constraints, we are compelled to 
continue accepting risk in shore infrastructure investment and 
operations. We are funding the sustainment, restoration, and 
modernization of our facilities only enough to arrest the immediate 
decline in the overall condition of our most critical infrastructure. 
Although fiscal year 2016 marks an improvement in the facilities 
funding when compared to fiscal year 2015, Navy is still below the DOD 
goal for facilities sustainment. Facilities sustainment also declines 
in the Future Years Defense Plan in order to preserve the operational 
readiness of our Fleet.

    Question. What would the consequences of sequestration be for your 
fiscal year 2016 MILCON programs?
    Answer. As the Chief of Naval Operations has testified, a return to 
sequestration in fiscal year 2016 would necessitate a revisit and 
revision of the defense strategy. Required cuts will force us to 
further delay critical warfighting capabilities, reduce readiness of 
forces needed for contingency response, forego or stretch procurement 
of ships and submarines, and further downsize weapons capacity.
    Due to the funding shortfalls over the last 3 years, we have been 
compelled to reduce funding in shore readiness since fiscal year 2013 
to preserve the operational readiness of our fleet. As a result, many 
of our shore facilities are degrading. At sequestration levels, we 
expect the condition of our shore infrastructure--including piers, 
runways, and mission-critical facilities--will erode. This situation 
may lead to structural damage to our ships while pierside, aircraft 
damage from foreign object ingestion on deteriorated runways, and 
degraded communications within command centers. We run a greater risk 
of mishaps, serious injury, or health hazards to personnel.
    While I can't talk about the specific impacts of sequestration in 
fiscal year 2016 because it would be pure conjecture, I can tell you 
some concerns I have specific to MILCON based on how sequestration 
affected our MILCON program in 2013. In 2013, each MILCON project was 
reduced by 7 percent. With support from Congress, we were able to 
reprogram MILCON dollars we had saved over several years due to a 
favorable bidding climate. However, we're starting to notice that the 
bidding climate is trending less favorably. So therefore, I can't be 
certain that we'll have the same flexibility to fill gaps in MILCON 
projects if sequestration in 2016 is applied in the same way. In that 
case, we would either have to de-scope or cancel projects.
                          facility conditions
    Question. The O&M money allocated for facilities sustainment has 
declined over the last few years, and the Services can only fund 90 
percent or 80 percent or even 70 percent in some cases. These decisions 
may require additional MILCON in the future to replace neglected 
facilities.
    In general, what are the conditions of your facilities? What 
percentage are failing? What percentage near failure?
    Answer. Approximately 50 percent of the Navy's shore infrastructure 
is in adequate condition, which can be classified as ``Good'' or 
``Fair.'' However, 12 percent of Navy infrastructure is in a condition 
classified as ``Failing.'' We will continue to carefully and 
deliberately manage the risk we are taking in our Shore enterprise, 
with the understanding that chronic underinvestment in our shore 
infrastructure takes a toll on our ability to support deploying forces.
    I can assure you that the safety of our people is paramount, and we 
closely monitor the conditions of our facilities to ensure there are no 
risks to our personnel.
                                 ______
                                 
           Questions Submitted by Senator Barbara A. Mikulski
    Question. Indian Head has engineers strung all over the 
installation in old run down buildings and needs a new engineering 
complex so they can have more effective collaboration. Again, when the 
budget comes out this project is not there. When do you see Indian Head 
being able to upgrade their facilities?
    Answer. The Navy has more than $100 million in Military 
Construction (MILCON) projects currently underway at Naval Support 
Activity Indian Head to improve facilities and support infrastructure, 
including an fiscal year 2011 MILCON project to construct a new Agile 
Chemical Facility, an fiscal year 2012 MILCON project to modernize the 
utilities system, and an fiscal year 2015 project to construct an 
Advanced Energetics Research Laboratory Complex. We will continue to 
carefully evaluate and prioritize proposed construction projects with 
all other competing requirements as we balance risk across the Navy. It 
is our goal to provide the greatest warfighting readiness and 
capability with the limited resources available.

    Question. What are the consequences when a mission as important as 
Indian Head's is forced to be carried out in aging infrastructure?
    Answer. The important work being performed across Navy's shore 
enterprise, including the Naval Surface Warfare Center at Indian Head, 
is critical to the Navy's mission success. Nevertheless, to comply with 
today's fiscal constraints, we are compelled to continue accepting risk 
in shore infrastructure investment and operations to preserve the 
operational readiness of our Fleet. We acknowledge that degraded 
infrastructure can impact a command as it performs its mission, and we 
will continue to carefully and deliberately manage this risk as we 
invest in our shore enterprise.

    Question. How does this help us recruit?
    Answer. Navy is compelled to continue accepting risk in shore 
infrastructure investment and operations to comply with fiscal 
constraints. We will continue to carefully and deliberately manage the 
risk we are taking in our Shore enterprise, with the understanding that 
chronic underinvestment in our shore infrastructure takes a toll on our 
ability to support deploying forces.
                                 ______
                                 
                Questions Submitted to David R. Clifton
                Questions Submitted by Senator Mark Kirk
                             sequestration
    Question. The President's fiscal year 2016 request is $74 billion 
above the BCA cap in total. Clearly some difficult choices need to be 
made about the Defense budget and the MILCON program, which represents 
a 29 percent increase over last year's historically low MILCON request.
    Where are the Services taking risk in this budget request? How 
manageable are the risks over the long term?
    Answer. The fiscal year 2016 President's budget represents the bare 
minimum at which the Marine Corps can meet current Defense Strategic 
Guidance, prioritizing near-term readiness at the expense of 
modernization and facilities maintenance. Today, approximately half of 
the Marine Corps' home station units are at an unacceptable level of 
readiness. Investment in the future is less than what is required, and 
infrastructure sustainment is budgeted at 81 percent of the 
requirement, well below the Department of Defense standard of 90 
percent. While assuming this risk helps us to meet near-term fiscal 
challenges, it will only serve to drive up costs over the long term as 
our degraded facilities become more expensive to repair. Additionally, 
the Marine Corps has significantly reduced many of the programs that 
have helped to maintain morale and family readiness through over a 
decade of war, and the deployment-to-dwell ratio is being maintained at 
a very challenging level. The operating forces are deploying for up to 
7 months and returning home for 14 or less months before redeploying.

    Question. How much risk have you already taken in your 
infrastructure portfolio?
    Answer. In order to protect near-term readiness the Marine Corps 
will continue to take risk in sustaining current infrastructure in 
support of operational readiness. The fiscal year 2016 budget funds 81 
percent of the OSD facilities sustainment model requirement for the 
Marine Corps. The OSD guidance is to fund 90 percent of the 
requirement.
    The Marine Corps is aware that underfunding facilities sustainment 
increases the rate of degradation of Marine Corps infrastructure, which 
leads to more costly repair, restoration and new construction in the 
future.

    Question. What would the consequences of sequestration be for your 
fiscal year 2016 MILCON programs?
    Answer. The fiscal year 2016 President's budget represents the bare 
minimum at which the Marine Corps can meet its obligations under the 
current Defense Strategic Guidance. This budget prioritizes near-term 
readiness at the expense of modernization and facilities. In order to 
ensure the readiness of our deployed forces under sequestration, we 
would be forced to assume even more risk in long-term infrastructure 
sustainment and investment in new facilities.
    Sequestration would significantly degrade the condition of our 
installation infrastructure, including training, runways, and mission-
critical facilities. It would also lead to the delay or cancellation of 
needed military construction and sustainment, restoration, and 
modernization projects. The degradation of our facilities would 
accelerate, compelling the use of inadequate and obsolete facilities by 
Marines and their families as well as our civilian workforce.
                          facility conditions
    Question. The O&M money allocated for facilities sustainment has 
declined over the last few years, and the Services can only fund 90 
percent or 80 percent or even 70 percent in some cases. These decisions 
may require additional MILCON in the future to replace neglected 
facilities.
    In general, what are the conditions of your facilities? What 
percentage are failing? What percentage near failure?
    Answer. As of the end of fiscal year 2014, the average condition of 
facilities across the Marine Corps is rated as fair. 6.34 percent of 
Marine Corps facilities are in failing condition. 10.61 percent of 
Marine Corps facilities are in poor (near failure) condition.
                                 ______
                                 
       Questions Submitted to Brigadier General Timothy S. Green
                Questions Submitted by Senator Mark Kirk
                             sequestration
    Question. The President's fiscal year 2016 request is $74 billion 
above the BCA cap in total. Clearly some difficult choices need to be 
made about the Defense budget and the MILCON program, which represents 
a 29 percent increase over last year's historically low MILCON request.
    Where are the Services taking risk in this budget request? How 
manageable are the risks over the long term?
    Answer. In the fiscal year 2016 President's budget request, the Air 
Force begins to ameliorate the impacts of risk taken in previous years 
by increasing funding in installation support, military construction, 
and facilities sustainment.
    This President's budget request takes a critical step toward 
recovering the Air Force. However, even at fiscal year 2016 President's 
budget levels, the Air Force remains stressed to do what the Nation 
asks of us. To truly reverse the erosion of American airpower requires 
sustained commitment, stability, and the decision-space to invest each 
taxpayer dollar where it can best deliver the most combat power.

    Question. How much risk have you already taken in your 
infrastructure portfolio?
    Answer. In its fiscal year 2015 President's budget request, the Air 
Force attempted to strike the delicate balance between a ready force 
for today with a modern force for tomorrow while also recovering from 
the impacts of sequestration and adjusting to budget reductions. To 
help achieve that balance, the Air Force elected to accept additional 
risk in installation support, military construction, and facilities 
sustainment in fiscal year 2015. However, in its fiscal year 2016 
request, the Air Force begins to ameliorate the impacts of that risk by 
increasing funding for installations in all three of the areas noted 
above.

    Question. What would the consequences of sequestration be for your 
fiscal year 2016 MILCON programs?
    Answer. Without relief from the 2011 Budget Control Act (BCA) in 
fiscal year 2016, the risk assumed to Air Force infrastructure could 
have severe impacts to mission readiness. At BCA levels, the Air Force 
would be forced to reduce military construction funding resulting in 
reduced support to combatant commands, reduce funding to upgrade the 
nuclear enterprise and support for new weapon systems beddowns, and 
eliminate permanent party dormitories from the fiscal year 2016 
President's budget request.
    A sequester-level budget would undermine the Department's ability 
to meet the current defense strategy, have consequences to national 
security at a time when our military is stretched on a whole range of 
issues. Therefore, the Department urges Congress to support the budget 
the President has put forward, which will avoid harmful BCA reductions.
                          facility conditions
    Question. The O&M money allocated for facilities sustainment has 
declined over the last few years, and the services can only fund 90 
percent or 80 percent or even 70 percent in some cases. These decisions 
may require additional MILCON in the future to replace neglected 
facilities.
    In general, what are the conditions of your facilities? What 
percentage are failing? What percentage near failure?
    Answer. The average facilities condition index (FCI) for all Air 
Force facilities is 92. Any facility with a FCI less than 60 is 
considered to be ``failing.'' On the basis of plant replacement value, 
5.8 percent have a FCI of 59 or less. Another 2.1 percent have a FCI 
between 60 and 69.
                                 ______
                                 
              Questions Submitted by Senator Tammy Baldwin
                      wisconsin air national guard
    Question. The dedicated Airmen of the Wisconsin Air National Guard 
perform a dual State-Federal operational role; consequently, they must 
always be ready to defend the homeland or deploy abroad. Access to 
high-quality installations is a critical part of maintaining that 
readiness. Accordingly, I am concerned that the Air National Guard has 
not programmed any military construction funding in Wisconsin over the 
last 5 years. Furthermore, there is only one Air National Guard 
military construction project in Wisconsin in the current Future Years 
Defense Program (FYDP). In other words, that is one project over a 10-
year period for an entire State.
    Please describe the impact on readiness and modernization, if any, 
on the Air National Guard's military construction program for Wisconsin 
for the period fiscal year 2010 to fiscal year 2020. If there is an 
impact, please describe the level of risk associated with such impact.
    Answer. The fiscal year 2010-2020 period for the Wisconsin Air 
National Guard (ANG) includes the $4.2 million military construction 
(MILCON) project to Add/Alter Building 500 for Medical Training at 
Truax Field. This project will improve the condition of the facilities 
used by the 115th Medical Group, a sub-unit of the 115th Fighter Wing 
assigned to the base. This includes construction of 5,900 square feet 
and alteration of 8,500 square feet of facility space. The project 
supports the training of medical professionals assigned to the unit, 
the medical readiness evaluation of military members assigned, and the 
full operational capability beddown of an Expeditionary Medical 
Support-Consequence Management function which can deploy to support 
emergency medical requirements for the Chemical, Biological, 
Radiological, and Nuclear Emergency Response Force Package unit 
assigned to Wisconsin; a domestic operations capability. The level of 
risk associated with not providing this facility project is generally 
assessed as moderate to significant impact to assigned training 
mission.
    Also, in October 2012, the ANG completed a fiscal year 2010 MILCON 
project to provide an addition to the Corrosion Control Hangar at 
General Mitchell Air Guard Station, Milwaukee. This project greatly 
enhanced the 128th Air Refueling Wing's capability to maintain the 
assigned aging KC-135 aerial refueling tanker fleet.

    Question. Are there existing Air National Guard military 
construction requirements in Wisconsin that remain unprogrammed and 
unfunded because of current limited budgetary resources? If yes, please 
describe those projects in order of priority.
    Answer. Each year the Air National Guard (ANG) gathers facility 
recapitalization requirements from the 54 States and Territories by 
surveying State Adjutant Generals for their highest priorities. The Air 
Force provides a scoring model used to prioritize all Military 
Construction (MILCON) requirements across Components.
    The Adjutant General of Wisconsin submitted the $4.2 million Truax 
Field Add/Alter Medical Training Facility MILCON project as the State's 
highest priority for the current FYDP. This project is included in 
fiscal year 2020 of the fiscal year 2016 President's budget FYDP.

    Question. The sole Wisconsin military construction project in the 
current FYDP is a fiscal year 2020-scheduled $4.2 million addition/
alteration of Building 500 for medical training at Dane County 
Regional-Truax Field, the home of the 115th Fighter Wing of the 
Wisconsin Air National Guard. This project reflects the importance of 
Truax Field to supporting the readiness and quality of life of our 
servicemembers and their families. I appreciate the inclusion of this 
critical project in the FYDP, but I also recognize that the FYDP--while 
a statement of Air National Guard priorities--is subject to change.
    Does the Air National Guard plan to change the funding or schedule 
of the Building 500 project? Please explain.
    Answer. The $4.2 million military construction (MILCON) project to 
add to and alter the Medical Training facility at Truax Field provides 
adequately sized and appropriately configured facilities for the 
medical training functions of the 115th Fighter Wing. This includes 
construction of 5,900 square feet and alteration of 8,500 square feet 
of facility space, and allows the unit to vacate three buildings, when 
completed. The project remains a high priority for the Air National 
Guard (ANG).

    Question. What is the project schedule, including the expected date 
of completion?
    Answer. At the present time, the ANG has no plans to change the 
funding or schedule for the project. A project scheduled for fiscal 
year 2020 construction would be expected to enter design by fiscal year 
2019, allowing the design to be completed by fiscal year 2020. Given 
fiscal year 2020 funding support from Congress, the project could begin 
construction in the spring of 2020, and be ready for occupancy 
approximately 12 months later.

    Question. How does the project address Air National Guard 
requirements?
    Answer. The project supports the training of medical professionals 
assigned to the unit, the medical readiness evaluation of military 
members assigned, and the full operational capability beddown of an 
Expeditionary Medical Support-Consequence Management function which can 
deploy to support emergency medical requirements in a contingency 
environment.

                          SUBCOMMITTEE RECESS

    Senator Kirk. We will be having a hearing on Thursday, 
March 19, on the Veterans Administration at 10:30 a.m.
    With that, we will adjourn.
    [Whereupon, at 3:39 p.m., Tuesday, March 17, the 
subcommittee was recessed, to reconvene Thursday, March 19, 
which was later postponed to Thursday, March 26, at a time 
subject to the call of the Chair.]
</pre></body></html>
